<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:40 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Collins, Murkowski, 
Blunt, Daines, Moran, Leahy, Murray, Tester, Udall, and Schatz.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. DEBORAH LEE JAMES, SECRETARY


               opening statement of senator thad cochran


    Senator Cochran. Good morning. We welcome everyone to our 
hearing today, which will involve review of the 
administration's fiscal year 2017 budget request for the United 
States Air Force.
    We are pleased to welcome the Secretary of the Air Force, 
Honorable Deborah Lee James, and the Air Force Chief of Staff 
General Mark Welsh III. We thank you for your service as the 
Air Force continues its important role in protecting our 
national security interests.
    The President's fiscal year 2017 proposal requests over 
$120 billion in base funding for the Air Force, which is 
roughly $1 billion more than the current funding level. The 
request also includes more than $12 billion to support ongoing 
overseas contingency operations.
    We look forward to hearing your testimony on these requests 
this morning.
    The Committee recognizes that the Air Force budget request 
is built on a long-term strategic framework, which balances the 
readiness of today while modernizing for the future. It is our 
role to find the correct balance among many competing 
priorities.
    My State, parochially speaking, is very proud of the Air 
Force's training and other activities in our State. We hope to 
support our Nation's air and space superiority as we have in 
the past, and we appreciate the service of all who are members 
of the Air Force team.
    We appreciate your service to the Nation and the dedication 
that you bring and the sacrifices you make daily in behalf of 
our citizens and specifically the men and women in our Air 
Force.
    Your statements will be made a part of the record in full, 
and we invite any comments that you might have.
    Let me first yield to our distinguished ranking member, 
Senator Leahy, for any comments that he might like to make.


                 statement of senator patrick j. leahy


    Senator Leahy. Well, thank you, Mr. Chairman.
    I know we want to hear from the people who are here.
    Senator Durbin is delayed on another matter so I am filling 
in for him.
    But it is good to have Secretary James and General Welsh 
here. They both know we are facing fiscal constraints across 
the government. Our second bipartisan agreement did delay the 
threat of sequestration. It allowed a modest increase in the 
amounts allowed under the budget cap. But funding still remains 
lower than the amount our military planners have sought.
    As we look around the world today, our Air Force is being 
asked to combat ISIS, Al Qaeda, other extremist organizations, 
to provide reassurance to partners like South Korea and Japan, 
and to European nations that are rightly concerned about recent 
Russian activities, and on top of that, be ready to go anytime 
day or night anywhere the Nation calls them.
    We also have to support research and technology and 
development. The U.S. Air Force is the most technologically 
advanced and best equipped flying force in the world today. We 
want to be that same way tomorrow.
    We have also got a moral obligation to take care of Air 
Force personnel and their families by providing the training 
they need so they can come home safely and the support services 
they and their family use when they need them.
    So there is an awful lot in here. It is a difficult 
balancing act. You have to craft a budget with those demands 
and restraints and face tough choices.
    So I think there are three areas that I think should be 
looked at.
    First, the health of our total force, especially the 
missions where the men and women of the Air Force in all 
components have been strained by repeated deployments. Two 
years after the Air Force Commission, barriers still remain to 
continuum of service that allow them to transition smoothly 
between components to give the Air Force more flexibility.
    The second, of course, the Air Force pledged to make every 
dollar count. How do we embrace competition in procurement? How 
do we end the cycle of cost overruns and delays in large 
development programs?
    And finally, how do we find the advances in science and 
technology, research of the caliber we had in past that has 
given us so much military strength? How do we make sure that 
research capability is there for the future? We discussed with 
General Welsh last year the next generation engine Air Force is 
researching. General, I believe you called it a game-changer. 
But we want to make sure we are the ones that change the game, 
not any other country.
    So we have got some difficult choices. I do not think we 
can continue to use OCO (Overseas Contingency Operations) funds 
as a gimmick to bolster defense spending. We have got to find 
the money we need.
    So I am looking forward to working with all of you. I look 
forward to any of you who wish to make visits to Vermont. I 
think you would be proud of everything that is done up there. I 
will be there this weekend, but I was saying to Chairman 
Cochran that he and I went there once when it ended up being 25 
degrees below zero and remain friends notwithstanding that.
    Thad, I want you to know it is only going to be 19 below 
this weekend.
    Thank you.
    Senator Cochran. Secretary James, we welcome you to the 
hearing. Any comments, opening statements you would like to 
make?


              summary statement of hon. deborah lee james


    Ms. James. Thank you very much, Mr. Chairman and Senator 
Leahy and to the other members of this committee. General Welsh 
and I are very proud to come before you today to talk about our 
budget but, even more importantly, to talk about the 660,000 
active duty, Air National Guard, Air Force Reserve, and 
civilian Airmen, as well as their families. They truly are our 
priority number one.


                          air force priorities


    When I testified before this committee last year, I 
outlined three priorities, and those three priorities are 
taking care of people, number one. Number two is balancing 
properly readiness and modernization in our budget choices, and 
number three is making every dollar count. And I am here today 
to tell you all that these priorities have not changed.
    But what has changed substantially over the past year are 
the threats and the challenges faced by our Nation. As we sit 
here today, your Air Force is working very, very hard to 
degrade and ultimately destroy ISIL in the Middle East as part 
of a whole-of-government approach and an allied approach. In 
the past year alone, coalition forces upped the ante against 
the Islamic State of Iraq and the Levant (ISIL), flying more 
than 55,000 sorties in support of Operation Inherent Resolve, 
and this represents a threefold increase over the missions of 
2014. And take my word for it. Our Airmen have shouldered the 
lion's share of this work.
    A resurgent Russia now supports Assad in the skies over 
Syria, continues to foment problems in Ukraine, and indeed has 
announced his intention to modernize Russian nuclear forces.
    In addition, very recently we observed North Korea conduct 
an illegal nuclear test and a rocket launch just last Sunday.
    And if that is not enough, there is worrisome Chinese 
military activity in the South China Sea, and of course, we 
have growing threats in space and cyberspace.
    The bottom line here is that our Air Force has a key role 
to play in each of these areas, and we are fully engaged in 
every region of the world in every mission area across the full 
spectrum of military operations. Put simply, we have never been 
busier on such a sustained and such a global basis.
    Now, to continue confronting these challenges and in order 
to maintain an effective fighting force, our budget submission 
balances capacity, capability, and readiness. It also invests 
very importantly for future modernization, though this is where 
we had to make some tough choices, given that the budget 
agreement for fiscal year 2017 did not provide the full amount 
that we needed for the Air Force, and as a result, we could not 
afford the robust investment portfolio that we would have 
preferred.


                          tough budget choices


    Now, I will detail our budget choices as I discuss our top 
three priorities, and let me begin with taking care of people.
    Airmen and their families are, without question, our most 
important resource, and our budget reflects this truth.
    With that said, you are well aware that we have been 
downsizing in our Air Force for years, and this simply must 
stop. We must now up-size in our total force way to address a 
number of key areas, including critical career fields like 
intelligence, Intelligence, Surveillance, and Reconnaissance 
(ISR), cyber, maintenance across the board, and battlefield 
Airmen. And we want to thank this committee for supporting our 
active duty plus-up, which is going to go roughly from 311,000 
to 317,000 Airmen by the end of this fiscal year.
    But given our current operations tempo, we certainly cannot 
sink below this number, and I believe that the demands will 
indicate that we will need even more growth in fiscal year 
2017. In order to meet these demands, I plan to take a 
judicious approach to incrementally increasing our total force 
beyond the current level, provided of course that we can 
attract the right talent, and we would be grateful, therefore, 
for this committee's assistance should a reprogramming action 
be required down the line.
    Now, speaking of total force, we are continuing to maximize 
the use of our Air National Guard and Air Force Reserve by 
shifting additional missions and workload when it makes sense 
to do so. Examples that I can give you include the fields of 
cyber, ISR, command and control, mobility, and space. We are 
also continuing to push the envelope on integration from the 
staff level right on down to the wing level. Later this year, 
we will be testing a new total force organizational construct 
called the Integrated Wing, or the I-Wing. The I-Wing, which in 
this case will be a refueling wing, is designed to leverage the 
strengths of each component, reduce organizational redundancy, 
and meet mission demands more efficiently. And if this 
organizational construct proves to be effective, we will look 
to apply it more broadly in the future.
    Moving to other personnel concerns, we would ask for your 
support to provide requested funding for a 1.6 percent pay 
raise for both our military and our civilian employees, as well 
as targeted pay and retention bonuses for a variety of career 
fields, including our very important remotely piloted aircraft 
force. RPA and manned pilot incentives, by the way, are finally 
equalized, and this is tremendous news, but we cannot stop 
there. Specifically, we are submitting a legislative proposal 
this year which is intended to go even farther so that we can 
retain our aviators, all of our aviators, against an improving 
economy and an increasing demand for commercial pilots.
    Finally, this year's budget expands the Sexual Assault 
Prevention and Response program. It fully funds our child care 
operations, boosts educational benefits, and funds the most 
important infrastructure projects to benefit our Airmen.
    My second priority is getting the balance right between 
readiness and modernization. And as we have explained in the 
past, less than half--less than half--of our combat air forces 
are ready today for a high-end fight. Our aircraft inventory is 
the oldest it has ever been, and our adversaries are closing 
the technological gap on us quickly. So we simply must 
modernize.
    In terms of readiness, we will fund flying hours to their 
maximum executable level. We will invest in weapons systems 
sustainment and ensure combat exercises like Red Flag and Green 
Flag remain strong.
    After consulting with combatant commanders, General Welsh 
and I agreed that we needed to make some adjustments to some of 
the world changes I mentioned earlier. One adjustment is the 
rephasing of the A-10 and the EC-130H Compass Call retirements. 
The bottom line here is we are not proposing to retire any of 
these aircraft in fiscal year 2017. Although we currently 
believe that we will still need to divest these weapons systems 
in the future, this change will maintain a sufficient number of 
fighter and attack aircraft across the force in support of 
current operations, and the rephase will allow us to better 
align retirements of older aircraft as we phase in the F-35. 
Furthermore, we are going to continue to look at this mix of 
aircraft each year, and we will be prepared to modify based on 
the global security situation.
    Now, in conjunction with ensuring the right number and mix 
of the manned aircraft, we also need to get it right in terms 
of the number of remotely piloted aircraft, as well as 
munitions. And to that end, our budget adds 24 more MQ-9A 
Reapers to the inventory and increases our munitions buys to 
meet operational demand, including additional quantities of 
Joint Direct Attack Munitions (JDAMs) and small-diameter bombs.
    Now, turning to modernization, we are, of course, holding 
firm on our investments to support our top priorities of 
nuclear deterrence, space, and cyberspace. We will continue to 
advance on the F-35, the KC-46, the long-range bomber, and the 
combat rescue helicopter programs, as well as we will begin the 
Joint Surveillance and Target Attack Radar System (JSTARS) 
recapitalization.
    Unfortunately, as I mentioned earlier, modernization is 
where we did have to make some tough choices. For example, this 
budget will defer five F-35's in fiscal year 2017, and we would 
expect to defer a total of 45 over the 5-year defense plan. We 
will also be deferring a total of eight C-130J's over 3 years, 
and that is three C-130J's less for fiscal year 2017. We will 
also have to delay upgrades to improve some of our fourth 
generation systems, the F-16 missile warning and radio systems, 
for example. And finally, many needed infrastructure 
improvements that we would like to make will simply have to 
wait. And we would renew our request once again for the 
authority to conduct a base closure and realignment.


                              space launch


    Now, just a few points, if I may, on space launch.
    Point number one I want you to know is that I want to 
affirm to all of you that we are moving as quickly as we can to 
eliminate the use of the RD-180 engine. Ultimately we need two 
commercially viable domestic launch providers to give us 
assured access to space and the mission assurance we need when 
we are dealing with billion dollar satellites.
    Point number two, we have obligated all the dollars 
authorized and appropriated in fiscal year 2014 and $142 
million of the $220 million provided in 2015, with the balance 
of that money to be obligated over the next month or so pending 
successful outcomes on final negotiations.
    Point number three, our strategy on this hinges first on 
technology maturation and risk reduction efforts, which is a 
very prudent approach to begin something that has this degree 
of hard, difficult scientific problems to solve. And then the 
second element of the strategy is to invest in public-private 
partnerships, first in rocket propulsion systems and ultimately 
to give us the total launch capability. I want to say that one 
more time. What is critical is the total launch capability. An 
engine is one component. It is an important component, but an 
engine alone will not get us to space. We have to have the 
total capability.
    Point four is we believe deeply in competition. It is in 
the best interest of the taxpayer and it will contribute to a 
healthy industrial base. And everything I just told you is very 
much with an eye toward maintaining that competition.
    And finally, point five, given the importance of space and 
the many, many complexities involved here, our strong desire 
for competition being right at the head of the pack, we need 
reasonable flexibility to access RD-180's over the next few 
years as we transition to these two domestically available 
commercial providers. So just as we testified last year, we 
think having access to a total of about 18 RD-180's is 
reasonable and prudent to maintain competition over these next 
few years.
    Third and final priority is make every dollar count and to 
get the taxpayer the best bang for the buck. And we have got a 
number of initiatives that we are working here, including 
streamlined energy usage, cost saving ideas that come directly 
from our airmen, and continuing the march toward meeting the 
mandate to be audit-ready by the end of fiscal year 2017.
    As I begin to wrap, Mr. Chairman, I want to thank you for 
your leadership and support of the Bipartisan Budget Act. 
Although the BBA does provide about $3.4 billion less for 
defense for the Air Force in fiscal year 2017 than we need, 
this legislation is extremely important and gives us some 
precious stability and predictability. And we are very, very 
appreciative of this.
    But we do continue to worry that we will return to 
sequestration in fiscal year 2018 and beyond if it is not 
lifted. As you know, in 2013, during that year of 
sequestration, we parked our jets. We delayed upgrades, and we 
halted training. And this created a readiness chasm. For the 
last 2 years, we have been trying to rebuild that readiness, 
but of course, our Airmen have needed to respond to these real-
world events across the globe. If we return to sequestration in 
fiscal year 2018, this will exacerbate the readiness problem 
and set us even farther back, and if this happened, our Airmen 
could be forced to enter a future conflict with insufficient 
preparation. And you know what history teaches us about 
insufficient preparation. It tends to prolong combat and it 
costs lives ultimately. And I just feel like we need to do 
better than that. So we renew our request to lift sequestration 
permanently and to eliminate it.
    Thank you, Mr. Chairman, and I would now yield to General 
Welsh.
    [The statement follows:]
            Prepared Statement of Hon. Deborah Lee James and
                       General Mark A. Welsh III
              introduction: the world's greatest air force
    The United States Air Force remains the greatest air force on the 
planet. We are powered by Airmen with more talent and education than 
ever before. Our inventory, although aging, continues to be more 
capable across the enterprise than any Nation in the world. Together 
with our Joint and Coalition partners, Airmen provide around-the-clock 
Global Vigilance, Global Reach, and Global Power in defense of our 
Nation and our Allies. They are also vital to the most integrated 
Joint, Coalition and partner relationships in our history--even better 
than during the incredible combined success of Operation DESERT STORM 
25 years ago.
    However, we are experiencing a colossal shift in the geopolitical 
landscape. For the first time in a generation, adversaries are boldly 
challenging America's freedom of maneuver in air, space, and cyberspace 
in contested regions and near our Allies' borders. The era in which the 
United States could project military power without challenge has ended. 
Indeed, China has been increasing its military capability and is now 
expanding its grip on the Pacific. This compounds the risk of 
miscalculation or conflict in the region. Russia has attempted to annex 
Crimea and continues its aggression in Ukraine further pressuring the 
NATO alliance. At the same time, Russian and American Air Forces are 
both conducting offensive military operations in Syrian airspace. An 
unpredictable North Korea continues to conduct nuclear and ballistic 
missiles tests in the face of international condemnation. Syria and 
Iran have purchased one of the world's most capable air defense systems 
from their Russian ally while continuing to oppose our interests in the 
region. These challenges further complicate a relentless fight against 
Violent Extremist Organizations seeking to exploit weak governance and 
disrupt world order. The past 2 years are a reminder that stability is 
not the natural state of the international environment, that peace is 
not self-perpetuating, and that entire regions can suddenly descend 
into anarchy.
    While the world's expectations of American airpower were shaped by 
Operation DESERT STORM, our near-peer adversaries responded to that 
victory by modernizing their forces with systems specifically designed 
to neutralize our strengths. Satellite-enabled precision, stealth, 
cruise missiles, and other military technology that debuted in DESERT 
STORM are now proliferating around the globe. Quite simply, our 
adversaries have gained unprecedented ground in just 25 years. In 
contrast, prior to 1992, the Air Force procured an average of 200 
fighter aircraft per year. In the two and a half decades since, 
curtailed modernization has resulted in the procurement of less than an 
average of 25 fighters yearly. In short, the technology and capability 
gaps between America and our adversaries are closing dangerously fast. 
As our challengers employ increasingly sophisticated, capable, and 
lethal systems, your Air Force must modernize to deter, deny, and 
decisively defeat any actor that threatens the homeland and our 
national interests. This modern force hinges upon the globe's finest 
Airmen. We will develop these Airmen through world-class education and 
training so they are prepared for 21st century combat.
    The fiscal year 2017 President's Budget aims to build, train, and 
equip an Air Force capable of responding to today's and tomorrow's 
threats. It balances capacity, capability, and readiness in support of 
a resource-informed Service strategy that Takes Care of People, Strikes 
the Right Balance Between Readiness and Modernization, and Makes Every 
Dollar Count. Congressional support for our budget, built in accordance 
with Air Force and National Strategy, will keep us on a path of 
disciplined modernization and begin to arrest the erosion of our 
competitive advantage while continuing to defend America's interests 
wherever they are challenged.
        global vigilance, reach, and power for america... daily
    Our Joint Force's strength and depth is a coercive instrument 
deliberately designed to deter, and if necessary, compel, our 
adversaries. We provide a broad range of military options for America. 
However, phenomenal Airmen, combined with airpower's speed, agility, 
and flexibility, often make your Air Force a preferred employment 
option, for missions ranging from humanitarian relief to armed 
intervention.
    Today, in our 25th consecutive year of combat operations, your Air 
Force provides the preponderance of combat force against Violent 
Extremist Organizations (VEOs) in the Middle East, North Africa, and 
Central Asia. We monitor these organizations with an unblinking eye and 
a 34,000-person intelligence, surveillance, and reconnaissance (ISR) 
enterprise dedicated to analyzing and disseminating intelligence to 
empower decision-makers, identify targets, enable air strikes, and 
protect Joint and Coalition forces. We have flown more than 30,000 
sorties in Iraq and Syria since August 2014, including two-thirds of 
the 9,000 Coalition airstrikes and more than 90 percent of the 19,000 
Coalition tanker sorties. In short, your Air Force is leading the 
campaign to degrade and destroy VEOs who seek to upend world order.
    Additionally, when Russian forces challenged the security and 
territorial integrity of European nations on its periphery, American 
Airmen joined our fellow Soldiers, Sailors, and Marines to present a 
united stand against Russian aggression with our NATO allies. Deployed 
combat and mobility air forces, ISR and space platforms, and cyberspace 
assets spearheaded a persistent and dominant air, land, and sea 
presence in the region. While strengthening this vital alliance, we are 
also building non-NATO partner capability in support of the European 
Reassurance Initiative.
    At the same time, we are projecting power in the Pacific because 
China's defense spending continues to grow at double-digit rates as 
they fund and field an impressive array of modern weapons supporting a 
more assertive regional strategy. Thus, as China attempts to expand its 
claims in the South China Sea and coerce our Pacific partners, your 
Airmen are projecting power through a continuous bomber presence and by 
conducting reconnaissance operations in the region. We are preventing 
strategic surprise, bolstering freedom of maneuver and freedom of 
navigation for the Joint Force, and protecting the global commons.
    Airmen around the globe protect American interests...daily. At U.S. 
Central Command's Combined Air Operations Center, Airmen lead Joint 
operations throughout the Middle East, Central Asia, and the Horn of 
Africa. We have nearly 20,000 Active Duty Airmen stationed in Japan and 
on the Korean Peninsula, where we fly regularly with our Pacific 
partners. More than 23,000 Total Force Airmen around the globe conduct 
operations in and through space and cyberspace supporting the Joint 
Force. Your Air Force supported 25 space missions, provided GPS, 
weather, communications, and Space Situational Awareness capabilities 
while tracking over 23,000 objects orbiting the Earth. We flew nearly 
1.7 million hours in 2015, equal to 194 continuous years of flying. We 
moved nearly a million passengers, the equivalent of every man, woman, 
and child in Montana. Air Force aerial refuelers passed more than 1.2 
billion pounds of fuel and our mobility aircraft airlifted 345,000 tons 
of cargo and evacuated more than 4,300 Joint patients--all in support 
of the Joint Force and our international partners.
    There is no mission more critical than maintaining our Nation's 
nuclear capability. Your Airmen operate two of the three legs of our 
Nation's nuclear triad and continue to improve the nuclear enterprise, 
providing the deterrence that keeps America's most lethal threats at 
bay. The responsiveness of the intercontinental ballistic missile 
(ICBM) and the flexibility of the bomber underwrite U.S. national 
security. More than 35,000 Airmen protect our national interests and 
those of our Allies by ensuring a safe, secure, and reliable nuclear 
deterrent. Your nuclear forces ensure strategic stability with other 
nuclear powers and provide a wide range of options to deter strategic 
attacks and respond to emerging threats.
    Lastly, programs like Airmen Powered by Innovation and Every Dollar 
Counts encourage Airmen to take ownership of day-to-day processes and 
improve our business practices. These campaigns have yielded billions 
of dollars in savings and cost avoidance over the last 2 years. These 
funds are then reinvested in readiness and modernization.
    Today's Airmen--your Airmen--are dedicated to innovation, 
accomplishing their mission, and building a better Air Force for 
tomorrow... all while supporting and defending our Constitution and 
protecting our Nation.
      a crucial moment: the dynamic, complex future is upon us now
    While our Airmen remain heavily engaged around the world, the 
average age of our aircraft is at an all-time high, and the size of our 
force and state of our full-spectrum readiness are at or near all-time 
lows. Non-stop combat since Operation DESERT STORM has placed a 
substantial burden on our Airmen and their families while straining the 
readiness of our personnel and the systems they operate. Without 
question, the U.S. Air Force America remembers from 1991 is now 
shockingly smaller and older: 25 years ago, we had 134 combat-coded 
fighter squadrons while today we have 55; we had 946,000 Total Force 
military and civilian Airmen while today we have fewer than 660,000. If 
World War II's B-17 bomber had flown in DESERT STORM, it would have 
been younger than the B-52, KC-135 and the U-2 are today.
    Despite America's inherent strategic advantages, challengers are 
quickly closing the capability and technology gaps between us. Tools 
that were unaffordable to most nations during the DESERT STORM era, 
such as computing power, nuclear weapons, cruise and theater ballistic 
missiles, and other precision guided munitions have decreased in cost 
and continue to proliferate. Sophisticated air defense systems are 
becoming the norm. Furthermore, the declining cost of defense is 
outpacing the rising cost of offense, challenging your Air Force's 
ability to present an effective conventional deterrent. The bold and 
deadly actions taken by revisionist powers in the last 5 years would 
have been unimaginable just a decade ago. Deteriorating military 
strength is an invitation for conflict as rising or unstable powers 
seek to gain from our eroding competitive advantage.
    We must counter these challenges. This requires agile Airmen who we 
trained and equipped for all possible scenarios with modernized weapons 
systems and infrastructure where it counts the most. We remain grateful 
for recent budgetary relief from the Budget Control Act (BCA) caps in 
fiscal years 2016 and 2017, but fiscal year 2018 and beyond will return 
us to inadequate funding to carry out the National Military Strategy. 
Uncertain future budget toplines make it difficult to deliberately 
balance investments to modernize, recover readiness, right-size the 
force, and win today's fight.
    Our rapidly shrinking advantage over competitors is the result of 
their increasing investment in areas designed to blunt our strengths 
combined with our limited funding and that of our Allies and partners. 
In fact, our forecasts from 5 years ago reflected we would have greater 
funding and fewer combat requirements than we are experiencing today. 
The combined strategic challenges of international financial 
turbulence, tenacious violence in the Middle East, and more ambitious 
great power actors have created a gap between the funding we need and 
the funding we receive.
    Combat requirements since 2001 have created an imbalance due to a 
necessary focus on operations in relatively permissive environments. 
However, that does not relieve the Air Force from our obligation to be 
ready--always--to deter or defeat an adversary in a conflict where air 
superiority must be fought for and maintained instead of expected at 
the outset. Our Joint Force has enjoyed uninterrupted Air Superiority 
since April 1953--the result of realistic training and wise 
investments. Despite our outstanding aviators, maintaining Air 
Superiority while flying 20th century aircraft against 21st century 
enemy air defenses represents a strategic mismatch. The fiscal year 
2017 PB works to correct this, but in order to ensure we have the 
capacity for today's operations, we curtailed F-35 procurement and 
delayed some 4th generation modifications necessary to keep our aging 
fleet relevant against all foes. The longer we are forced to delay 
modernization, the more we jeopardize our ability to dominate full-
spectrum conflicts. This is a risk we must not take. Although we 
provide world-class intelligence collection, rapid global mobility, air 
and space superiority, command and control, and global precision 
attack, your Air Force's future as a full-spectrum war-fighting force 
is in danger without substantial modernization.
                          a call to the future
    America is an air and space power Nation. In an historic anomaly 
lasting 25 years, the U.S. has possessed unparalleled dominance in the 
air and in space, enabling a generation of Airmen to focus almost 
exclusively on operations against non-state threats in permissive air 
environments. However, dominance is not an American birthright, and 
air, space, and cyberspace superiority are not American entitlements. 
Without the ability to achieve national security objectives in air, 
space, and cyberspace--all under-written by a strong and reliable 
strategic nuclear deterrent--America's influence will diminish and the 
Joint Force will be forced to radically change how it goes to war. 
American lives may needlessly be put in danger and our leaders' options 
will be limited.
    Air forces that fall behind the technology curve fail, and if the 
Air Force fails, the Joint Force fails. Your Air Force understands 
balancing combat capability, capacity, and full-spectrum readiness is a 
strategic imperative. While balancing today's combat requirements, 
maintaining readiness, and growing our endstrength, we must 
simultaneously modernize in order to halt the erosion of our technology 
and capability advantages. In the fiscal year 2017 PB, we made 
difficult choices to best achieve this needed balance. However, to 
successfully execute the PB, we need your help to ensure we have the 
appropriate funding, the flexibility to execute the choices we are 
presenting, and long-term budget stability. We also request the repeal 
of the BCA which increases the risk to the Nation and our Allies.
    In order to create a consistent plan for our Service, we built a 
Strategic Framework that ensures our budgetary decisions are based on 
strategy. The core of this framework is a family of strategic documents 
describing the expected future environment, our Service core missions, 
how your Air Force will accomplish those missions 20 years from now, 
and what we need to focus on during this future years defense program 
(FYDP) to meet that strategy. The PB is built upon this resource-
informed Strategic Framework, and it continues our efforts to ``right 
the force'' after fiscal year 2013's sequestration. This Strategic 
Framework and our three priorities of Taking Care of People, Balancing 
Readiness and Modernization, and Making Every Dollar Count are the 
foundation of the fiscal year 2017 PB.
    Our strategy-driven fiscal year 2017 PB is consistent with last 
year's PB and offers the best balance for America's current and future 
air, space, and cyberspace requirements at Bipartisan Budget Act (BBA)-
level funding. It is designed to synchronize budget and acquisition 
decisions with strategy and provide a continuing advantage against 
competitors across the range of military operations despite the 
modernization slowdown necessary to continue current operations. It is 
credible, affordable, and executable--if we're allowed to execute where 
we have requested.
    Despite a BBA that resulted in a lower-than-expected fiscal year 
2017 PB, your Air Force will support the Nation's defense strategy and 
the most urgent Combatant Commander requests. The fiscal year 2017 PB 
is the result of difficult, purposeful, strategy-centric resourcing 
decisions made to meet obligations set in Defense Strategic Guidance. 
It aligns with Department of Defense and Air Force 30-year strategies 
and continues to gain ground in our ability to wage full-spectrum 
operations. It maximizes the contributions of the Total Force and 
reinforces investments in nuclear deterrence, space control, and 
cyberspace operations. It emphasizes global, long-range, and non-
permissive capabilities and focuses on unique capabilities the Air 
Force provides to the Joint Force. It invests in our most precious 
resource-- people--by growing our active force back to 317,000 Airmen 
by the end of fiscal year 2016. As part of our initiative to right-size 
our force, we also will right-shape our force by maximizing selective 
retention bonuses to address skilled manning shortages. We will take 
care of our incredible Airmen and protect our most important family 
programs by continuing to fully fund Military Tuition Assistance, 
Sexual Assault Prevention and Response programs, and Airmen Family 
Readiness Centers.
    In addition to right-sizing our Service for today's demands, the 
fiscal year 2017 PB continues our efforts to balance readiness and 
modernization despite funding challenges. This PB includes a $6.5 
billion investment in Nuclear Deterrence Operations, an increase of 
$4.3 billion over the FYDP compared to the fiscal year 2016 PB. This 
investment includes modernizing nuclear command and control, replacing 
outdated and unsupportable Minuteman III ICBM equipment, and building 
the Ground Based Strategic Deterrence program to begin replacing the 
aging Minuteman III in the late 2020s. We are also developing the Long-
Range Standoff weapon which will provide the Joint Force with a 
survivable air-launched weapon capable of destroying otherwise 
inaccessible targets in any zone of conflict.
    Additionally, we intend to delay the A-10 and EC-130 retirements to 
maintain capacity in support of today's operations. We will fund flying 
hours to their maximum executable level, invest in weapon system 
sustainment, and ensure combat exercises like Red Flag and Green Flag 
remain strong. We will continue our top three recapitalization 
programs, though we have made the difficult decision to slow F-35 
procurement. We will resource strategic assets such as the Space-Based 
Infrared System (SBIRS) to detect global missile launches. We will also 
invest in preferred munitions capacity and the Combat Rescue Helicopter 
recapitalization program while continuing to grow from 26 Cyber Mission 
Force Teams to 39. Lastly, we will fund improvements to Global 
Integrated ISR with a focus on the Remotely Piloted Aircraft (RPA) 
enterprise. These include increased benefits for aircrew, a program to 
train enlisted operators to fly the RQ-4 Global Hawk, a basing study to 
provide options to support flying RPAs on a schedule more conducive to 
steady-state operations, and other recommendations from our Culture and 
Process Improvement Program, a bottom-up review of issues impacting our 
RPA force.
    The BBA has forced us to make sacrifices as we balance readiness 
and modernization. In this case, we must delay five F-35s and slow 
modernization of our 4th-generation aircraft. With increased funding, 
we would invest in these capabilities now to ensure they do not compete 
for funding with critical nuclear and space requirements in the out-
years. Just as importantly, we must delay investment in aging critical 
infrastructure such as ranges, airfields, and taxiways, an action we 
have repeated annually since fiscal year 2013 sequestration. Every year 
we delay these repairs, operations are affected and the eventual cost 
of improvements grows substantially.
    Importantly, this budget must mark the return of a committed 
investment to Global Vigilance, Global Reach, and Global Power for 
America. A return to BCA-level funding in fiscal year 2018 will 
undermine our readiness and modernization; it will require your Air 
Force to depart from a long-term, Strategic Framework in favor of a 
course of action that funds only things absolutely required in the 
short-term. It will abet our challengers' efforts to further erode our 
capability and technology advantages, and we will be forced to slow our 
modernization programs, delaying our planned readiness recovery. A 
return to BCA-level funding will limit our space, cyberspace, and 
nuclear improvements and further degrade Air Force-wide infrastructure 
and installation support. It is critical that the looming threat of 
sequestration ends. BCA-mandated across-the-board defense cuts will act 
as a straitjacket, preventing the department from reallocating funds to 
the most critical capabilities and investments at the very moment such 
flexibility is paramount. This will result in significant strategic 
risk and greater cost over the long run. fiscal year 2017 represents a 
critical point when the Air Force can continue to ``right the force'' 
in terms of size, capacity, readiness, and present/future capabilities. 
Alternatively, fiscal year 2017 could simply represent temporary relief 
before inadequate future BCA-level funding thwarts modernization and 
readiness initiatives. Make no mistake, BCA-level funding will result 
in longer timelines to meet Joint Force objectives; this could result 
in increased risk to mission and service members.
    Our Nation requires bold leadership from the Congress. Your Air 
Force needs the authority and flexibility to execute our strategy 
through Congressional support of the fiscal year 2017 PB. We appreciate 
the BCA relief provided by the 2015 BBA, but responsibly sustaining and 
investing in U.S. security requires long-term budget stability and the 
repeal of BCA. Critically, even at BBA funding levels, the overall 
capability gap between us and our competitors will continue to narrow; 
we can preserve the advantages in some areas, but determined 
adversaries will close gaps in others. Accordingly, we are prioritizing 
the Joint Force requirements our Nation needs the most.
                      conclusion: a call to action
    Today's national security challenges come from a combination of 
strong states that are challenging world order, weak states that cannot 
preserve order, and poorly governed spaces that provide sanctuary to 
extremists who seek to destabilize the globe. The world needs a strong 
American Joint Force, and the Air Force is its first and most agile 
responder in times of crisis, contingency, and conflict. The Joint 
Force depends upon Air Force capabilities and requires airpower at the 
beginning, the middle, and the end of every Joint operation. As our 
Army and Marine Corps get smaller, they do not want less airlift; they 
want it to be more responsive. As Combatant Commanders look toward 
battlefields of the future, they do not want less ISR; they need more 
persistent, capable, and agile ISR. Should our Nation find itself in 
another conflict requiring boots on the ground, we have the 
responsibility to assure air superiority so American Soldiers and 
Marines may keep their eyes on their enemies on the ground rather than 
concern themselves with enemy airpower overhead. America's Air Force 
must be able to disrupt, degrade, or destroy any target in the world, 
quickly and precisely, with conventional or nuclear weapons, to deter 
and win our Nation's wars. Undoubtedly, decisive air, space, and 
cyberspace power--and the ability to command and control these forces--
have become the oxygen the Joint Force breathes and are fundamental to 
American security and Joint operations. Whether in support of global 
counter-terror operations or great power deterrence, your Air Force 
remains constantly committed, as we have without respite for the past 
25 years.
    In the face of a dynamic, complex, and unpredictable future, your 
Airmen provide a strategic advantage over America's competitors. They 
are educated, innovative, and motivated. Their ability to see threats, 
reach threats, and strike threats is an effective but shrinking 
conventional deterrent against America's enemies. These courageous 
Airmen, when properly trained, effectively equipped, and instilled with 
the trust of their leadership, will ensure the Air Force continues to 
overmatch opponents in Joint and Coalition operations and defend the 
United States from any who would do us harm.
    The fiscal year 2017 President's Budget--and the flexibility to 
execute it as we have recommended--is an investment in the Air Force 
our Nation needs. The global developments of the last 5 years have 
reminded us that America's Air Force must have the capability to engage 
anytime, anywhere, and across the full spectrum of conflict all while 
providing a reliable strategic nuclear deterrent. America expects it, 
Combatant Commanders require it, and with your support, our Airmen will 
deliver it.

    Senator Cochran. Thank you very much, Madam Secretary.
    General Welsh, we appreciate your presence here and your 
service as the Chief of Staff of the Air Force. You may proceed 
with your statement.
STATEMENT OF GENERAL MARK WELSH III, CHIEF OF STAFF
    General Welsh. Thank you, Mr. Chairman, Senator Leahy, and 
distinguished members of the committee. It is always a pleasure 
and a privilege to be here in front of you. Thank you for your 
time today. It is a real privilege to sit here with Secretary 
James to represent America's Airmen as well.

                      DEMAND FOR AIR POWER RISING

    The United States cannot fight much less win today's wars 
without air power. That is just the way modern warfare has 
moved. And the demand signal for that air power continues to 
rise.
    Today's Air Force is supremely qualified to provide an 
asymmetric advantage at an incomparable rate, but the gap 
between our Air Force and our closest pursuers is closing and 
it is closing quickly. And we cannot afford to ignore that 
shrinking capability gap.
    So while we work hard to continually become more efficient, 
which we must, and to minimize the cost of effectively 
operating our Air Force, if less capability or less capacity or 
less readiness eventually means that we lose even one more 
young American on the battlefield, we will all wish that we had 
made better investments.
    The global security environment drives an insatiable 
appetite for everything our Air Force brings to the joint 
force, from ISR to command and control, to mobility, to 
precision strike and the air and space superiority that enables 
it all. Twenty-five years of combat operations have 
dramatically impacted our total force readiness, significantly 
aged our equipment, and have shown the brilliance of our Airmen 
and the loyalty of their families. The world is changing and 
the threat is changing, and our Air Force must change with it 
if we are to remain relevant.
    Not once since I have been in this job in any air power 
discussion, combat discussion, or contingency discussion has 
someone questioned me about whether or not we could actually 
reach, surveil, or strike any point on the earth. No one ever 
asks me how our missions come together. No one questions 
whether or not we are capable of accomplishing a particular 
task. Today, American air power is a given, and I believe it is 
our job collectively to ensure that this Nation's ability to 
deliver that air power, when and were it matters most, does not 
diminish over time.
    We fully understand our responsibility to help reduce the 
national debt, but as a minimum, we need the flexibility to 
shape our Air Force for the future within our budget top line. 
And thank you for the support that this committee has given us 
to try and do that.

                MODERNIZATION OF AIR FORCE IS ESSENTIAL

    The F-35, the KC-46, and the long-range strike bomber are 
game-changers for us. They are long overdue and they are 
critical to success in any future high-end fight. And while 
they might be expensive, failing to push the strategic edge 
would place our Nation at unnecessary risk. Thank you for 
supporting those programs.
    But they cannot be the only modernization we pursue. There 
are many other systems that we need to either upgrade or 
recapitalize to ensure viability against current and emerging 
threats, and without additional funding, the only way to do 
that is to divest old capability to build the new and that 
requires very difficult emotional decisions, decisions that 
simply must be made if we are truly to provide for the common 
defense. The platforms and systems that made us great over the 
last 50 years will not make us great over the next 50 years.
    We have done a lot of thinking over the last few years 
about how to move forward with our service, and now over the 
next couple of years, we ask for your help to make the tough 
decisions required to move us in that direction. General Hap 
Arnold, the brilliant Commander of the Army Air Corps, stood up 
in 1945 and said let us go to work on tomorrow's air power. It 
is time for all of us to do the same.
    Once again, my thanks to each of you for dedicating your 
time and attention to our Air Force, our Airmen, and their 
great families who give it life. The Secretary and I look 
forward to your questions.
    Senator Cochran. Thank you very much.
    I am pleased to have a good turnout of Senators for the 
hearing, and I want to yield, first of all, for any questions 
to Senator Leahy, the ranking minority member.
    Senator Leahy. Well, thank you, Mr. Chairman.
    I mentioned in my opening statement and I have discussed 
with General Welsh before we have heard the next generation 
engine is a game-changer, more efficient in its use of energy, 
and it outperforms today's engines. I would ask the same 
question of both Secretary James and General Welsh. How do we 
make technologies like this a reality? Can we do it ahead of 
any other country?

                        ADAPTIVE ENGINE PROGRAM

    Ms. James. I certainly hope so, Senator, and we certainly 
are working toward that goal. So the budget for fiscal year 
2017 has about $285 million for the adaptive engine program and 
several billion, $2.4 billion to be exact, over the 5-year 
plan. We are expecting to award to two contractors in fiscal 
year 2016. So the program is going well so far. And as you 
said, we have great hopes that this will be a game-changer for 
us. So preliminarily we think we can get 25 percent reduced 
fuel consumption, 10 percent more thrust, 30 percent greater 
range. So there is a lot of benefits here, and we are going to 
continue the investment.
    Senator Leahy. General Welsh.
    General Welsh. Senator, I still believe it is a game-
changer. We burn an awful lot of jet fuel, and if we save 25 
percent of it a year across our fleet's aircraft, eventually by 
using this technology, we can either reapply that money or save 
that money for the Nation. I think this is something we have 
got to pursue.
    Senator Leahy. And you think we can do it.
    General Welsh. Yes, sir, I do. I am very confident the 
technology will be proven and that we will have the opportunity 
to then look at insertion points or actually putting new engine 
technology into platforms over time to create the savings that 
I think we can reap from this.
    Senator Leahy. Thank you.
    Without being parochial, not that anybody ever would on the 
Appropriations Committee, you have heard me talk about my pride 
in the National Guard and Vermont's National Guard, people like 
Lieutenant General Mike Dubie who just retired, Lieutenant 
General Bill Etter--what they have done for the Air Force and 
the joint force.
    Are there other opportunities we can open up to members of 
the Reserve components to build those quality of total force 
leaders? I want to make sure that we are reaching out and 
grabbing all the best people we can wherever they are.
    Ms. James. I think the answer is yes, and we are constantly 
on the hunt, as I mentioned earlier, to shift more missions and 
to shift more workload when it makes sense to do so. I 
mentioned several of the mission areas that are top of mind 
that we have been working either the last year or 2 or that we 
project that we will continue to work.
    I also mentioned the importance of more integration from 
the staff level, headquarters Air Force, for example, right on 
down to the wing level. So we are increasingly looking for 
opportunities to integrate in different ways. So we might have 
an active duty commanding a reserve unit or a reserve component 
commanding an active duty unit. So we are increasingly looking 
for certain opportunities that way.
    We are actively engaged in trying to work continuum of 
service issues that you mentioned, Senator. So we are a big 
total force Air Force. We cannot get our job done without our 
Guard and Reserve.
    Senator Leahy. Do you share that feeling, General.
    General Welsh. Senator, one Air Force. That is the thought 
process. There are three components. We have to make the 
strength of each component strengths of our Air Force. The boss 
mentioned the personnel integration, but the planning or the 
strategy integration is even more important. Every time we give 
a Program Objective Memorandum (POM) briefing to the Secretary 
for decision, there are two State adjutant generals sitting 
there in the room representing the other adjutant generals and 
the Governors. They have full access to our planning data. They 
are in the room. They have a voice. They interact routinely 
with our senior staff. We are doing everything we can to make a 
complete Air Force.

           NATIONAL COMMISSION ON STRUCTURE OF THE AIR FORCE

    Senator Leahy. I am thinking it will be 2 years--was it 2 
years, 2 weeks ago--the National Commission on the Structure of 
the Air Force issued their report. You have both done a lot to 
embrace their vision.
    If you had to pick one thing, the most important thing, 
left to be done, what would it be? And I am thinking of the 
National Commission's report. Is there one important thing that 
still needs to be done?
    Ms. James. I continue to want to work to reduce the number 
of duty statuses that we have. I still think it is too many, 
and we are now engaged in an OSD-driven effort to try to get 
there from here. So that is an important thing that they 
recommended. We agree with. We just have to figure out how to 
do it correctly.
    This I-Wing concept that I talked about that we are about 
to launch--that was an idea that came from the commission. It 
is a different way of integrating, and so we are very 
interested in that. We are going to test that out as well.
    And then finally, just to reiterate the continuum of 
service, it still is not sufficiently easy in my opinion to 
flow between active duty, Air National Guard, Air Force 
Reserve, and back again. So we still have to attack that 
process and try to make it easier so that we capture talent, 
retain talent in one of the elements of our total force team.
    Senator Leahy. General.
    General Welsh. Senator, I think at large the biggest issue 
is removing the frustration with doing things that make common 
sense because of the rules that are in place that restrict us 
from doing things between components that we would all like to 
be part of doing. That is going to take the help of the 
Congress. And so we will continue to bring legislative 
proposals forward to try and make that simpler, and we would 
really appreciate your help. And these are coming forward from 
all of us now together. And it is hard to get them through.
    Senator Leahy. I share your frustration.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Alabama, Mr. Shelby.

                        ASSURED ACCESS TO SPACE

    Senator Shelby. Thank you.
    I am concerned that some of my Senate colleagues may not 
fully appreciate the policy of assured access to space. General 
Welsh, could you just describe this concept and explain why it 
is so important to maintain at least two qualified and reliable 
launch vehicles capable of servicing the Air Force 
requirements?
    General Welsh. Senator, if I could, let me start with, from 
an operational perspective, why assured access is so critical 
and then ask the boss to follow up with some of the details 
that she has been leading the charge on I think in the 
Department on how do you make that reality.
    From a warfighter's perspective, the idea of doing anything 
that we do in the United States military anywhere on earth 
without the support we get from assets in space is a non-
starter. Everything from precision of weapons to navigation to 
timing of operations to control of an encrypted communication--
everything relies on assets that are now on orbit in space. And 
so the ability to replace them when necessary, to augment them, 
to supplement capabilities with sensors and new communications 
links is absolutely essential to the vision of future warfare 
for us.
    And, Boss, let me turn it over to you from there.
    Senator Shelby. Madam Secretary, go ahead.
    Ms. James. And to me and I think to those of us who have 
studied it, assured access to space means that it is absolutely 
critical that we have at least two separate pathways, two 
separate ways to power us into space. If you are reduced to one 
single way, that is the equivalent of putting all your eggs in 
one basket, and if something goes wrong, you can be shut down 
for months or even years.
    So for those who may think back to the period of the late 
1990s, we had such a period of time where we lost billions of 
dollars worth of critical satellite assets. There were 
accidents and so forth, and we were literally shut down, if my 
memory serves, for about 18 months where we could not get to 
space.
    So we have said that we must have two different pathways. 
It is the number one priority for those of us who are focused 
on space, and we have got to get this right because the stakes 
are high, just as the Chief said.

                             RD-180 ENGINE

    Senator Shelby. Secretary James, you got into this earlier 
and touched on it briefly then. Could you offer your opinion on 
the wisdom of the proposal that would eliminate the Air Force's 
use of the RD-180 prior to having a reliable replacement that 
ensures our continued access? In other words, would there be a 
gap there?
    Ms. James. I worry that there would be a gap. I believe we 
need reasonable flexibility as we all work to get off of the 
Russian engine. I want to reaffirm. We are very much interested 
and we are working hard to get off that reliance on the Russian 
engine. But until we do, it is important that we have 
reasonable flexibility because of assured access to space.
    Senator Shelby. I think we all would accept the basic 
premise we want to build our own engine. We should not rely on 
the Russians or anybody else. Is that correct?
    Ms. James. We want our own capability. That is right. And I 
only use that word ``capability'' vice ``engine'' because an 
engine is a component.
    Senator Shelby. I know, the capability.
    Ms. James. The capability, yes.
    Senator Shelby. The General alluded to that earlier.
    Give us up to date, as much as you can, knowing the 
building of a rocket, an engine of this magnitude is a 
difficult, very tedious thing. Where are we? You know, you 
mentioned the funding. This committee has funded more than the 
administration asked for because the sooner, the better. But 
sometimes you cannot rush technology, but the sooner, the 
better. Where are we and how long will it be in your judgment?
    Ms. James. What I have learned is that these are extremely 
difficult technical problems, as you say, and it is not quite 
as easy as simply reverse engineering an existing engine or 
anything of that nature. It really, really is hard science.
    Now, the good news is industry is not starting from a cold 
start. They had already been making developments. And so what 
we want to do is leverage that development with some of our 
money and that is what a public-private partnership is all 
about.
    Experts tell me that it is technically possible to get this 
done by fiscal year 2019. That is what we are charging toward. 
That is what the law has told us to do, and we are working 
toward that. It will be challenging. It is a risky proposition 
to have it done by 2019, but it is possible and that is our 
objective.
    But an engine alone--I want to come back to an engine alone 
is not a total capability. So even after we have a new engine 
developed, it has to be integrated with a rocket properly. It 
has to be tested and certified. So we project that it will be 
longer than fiscal year 2019 before we have that total 
capability to power us into space.
    Senator Shelby. Without the Russian engine right now, there 
could be a gap, as I mentioned, in national security working 
with our Air Force, everything else. Could it be?
    Ms. James. I worry about that, yes.
    Senator Shelby. Thank you.
    Do you share that, General Welsh?
    General Welsh. Yes, sir. I think the idea of assured access 
to space is--everyone agrees with it. That is important.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from New Mexico, Mr. Udall.
    Senator Udall. Thank you, Mr. Chairman.
    And let me thank both of our witnesses for their service. 
It is always a pleasure working with you on our Air Force 
family issues in New Mexico.
    I am concerned about how the Air Force is going to respond 
and plan for future threats. It has been repeated often that 
the military tends to prepare for the last war rather than the 
threats of the future. And I am happy to see that both of you 
have addressed that in your testimony. Secretary James, you 
said uncertain future budget top lines make it difficult to 
deliberately balance investments to modernize, recover 
readiness, right-size the force, and win today's fight. And, 
General Welsh, you, I think, led with a quote a minute ago. Let 
us get to work on tomorrow's air power. And I like that you 
have focused on that.
    In New Mexico, our Air Force bases are grasping with all of 
these issues, as you well know. At Kirtland Air Force Base, the 
Air Force research lab and the Nuclear Weapons Center--these 
are playing a major role to help modernize the force. And we're 
happy to hear today that there are going to be 34 additional 
positions in the Nuclear Weapons Center there in Albuquerque. 
The 58th Special Operations Wing and Holloman Air Force Base 
are both working to train our future warfighters, and at the 
same time, our special forces out at Cannon Air Force Base are 
bringing the fight to our enemies overseas.
    Secretary James, I want to thank the Air Force and the Army 
for making airspace deconfliction at Holloman a priority. I 
think this effort has ensured that the airspace over White 
Sands Missile Range can be further optimized. And as you know, 
there is nothing like the White Sands FAA blackout area 
anywhere in the world. As a result, I believe that Holloman is 
well positioned for the future. I assume that Holloman remains 
part of the long-term Air Force strategic vision. Is that 
correct?
    Ms. James. It is, and I am looking forward to visiting in 
the not too distant future.
    Senator Udall. So we are looking forward to your visit. 
And, General Welsh, you are also invited. I know you have got a 
lot of things on your schedule too.
    And as you know, the German air force does a lot of 
training at Holloman, and as they consider their future basing, 
do you support continued training by German forces at Holloman 
Air Force Base?
    Ms. James. I do.

                           FUTURE F-35 BASING

    Senator Udall. Last year, I supported increased production 
of the F-35. This year, the Air Force is asking for less, as 
you know, and you noted that in your testimony. How does this 
reduction impact the overall cost of the F-35 and the potential 
for future basing? And will Holloman Air Force Base remain a 
candidate for such basing in the future?
    Ms. James. So in terms of the unit costs of the F-35, 
ordinarily you are right. When you decrease the numbers that 
you are buying, ordinarily that means that a unit cost will go 
up for each individual aircraft. In this case, however, because 
there are Foreign Military Sales (FMS) purchases in the works 
and other services are buying F-35's, we believe that this will 
allow us to still have a stable unit price. We do not believe 
that the cost will go up, at least not substantially in this 
case.
    Could you try that next part about the basing?
    General Welsh. Yes, ma'am.
    Senator, your question about the basing, I am not sure what 
the question was.
    Senator Udall. Yes. The question was about when you go with 
a reduction----
    General Welsh. On the selection for the F-35.
    Senator Udall. Yes, the F-35. Will Holloman Air Force Base 
remain a candidate for such basing in the future? Basically 
talking, as you go with the reduction, are the numbers of bases 
where those could be deployed--are those going to be narrowed 
now as a result of that?
    General Welsh. Yes, sir. This change in the current FYDP is 
not eliminating numbers of F-35's. It is deferring them. And so 
our required number remains 1,763. We still hope one day to buy 
that many. And as a result, the basing process will not change. 
It will continue on the same pace using the same process we 
have been using up till now, and Holloman will continue to be 
eligible.
    Senator Udall. Great. Thank you very much.
    And finally, New Mexico continues to play, Secretary James, 
a major role to modernize our nuclear arsenal, as you know, our 
two national laboratories. Just for the record, do you agree 
that modernizing and extending the life of the deterrent is 
still one of the top priorities of the Air Force and making 
sure the B-61 is on time and on budget?
    Ms. James. I do.
    Senator Udall. Thank you very much. I really appreciate 
your service.
    And thanks again, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Montana, Mr. Daines.

             MISSIONS AT MALMSTROM AIR FORCE BASE, MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    It is good to see you again, Secretary James, as well as 
General Welsh. Thanks for being here today.
    As the proud Montana Senator of the Blanchard and Omaha 
trophy-winning airmen of the Malmstrom Air Force Base in Great 
Falls, Montana, and also the talented airmen of the Montana Air 
National Guard who just received an Air Force Outstanding Unit 
Award, I want to thank you for your support, truly, of Montana 
airmen in their diverse missions.
    A question, first of all, is regarding the Hueys in 
Malmstrom Air Force Base. They are using the Vietnam-era Hueys 
to provide security for the transport of our nuclear warheads. 
These operations happen every week, and I am very concerned 
about the security that they are able to provide.
    The question is what is the status of replacing these Hueys 
that provide the security for our nuclear transports at 
Malmstrom, for which you are requesting $18.3 million this 
year?
    Ms. James. So we are working on that, Senator Daines, I 
would say in a rather urgent way. We are looking at a variety 
of acquisition strategies, and certainly General Welsh and I 
have an eye toward speeding this up if we can. We will be 
trying to finalize that strategy in the next couple of months, 
like April-May timeframe. One possibility that we are looking 
at--we are not finalized on this, but one possibility would be 
to address the most urgent piece of this requirement first, 
possibly even through a sole-source situation because we could 
acquire the helicopters more quickly. So that is one strategy 
that we are looking at, but there is a variety of other ones as 
well. But please know that this is a top priority for us to get 
this worked out.
    Senator Daines. I appreciate it. It has taken quite a while 
to get here, and I think it needs to be a high priority. Thanks 
for putting the high priority on it. I look forward to 
resolution on that.
    Regarding the ICBM fleet, it has also been a priority to 
ensure the Air Force is on track with the work being done to 
replace the Minuteman III with the ground-based strategic 
deterrent. What is the current status of ground-based strategic 
deterrent?
    Ms. James. The status is, once again, this is the future of 
our ICBM (Intercontinental Ballistic Missile) force. So we are 
advancing it. It is funded in our 5-year plan, as well as in 
fiscal year 2017.
    One new approach, which has not been used before in this 
world, is to look at the GBSD (Ground-Based Strategic 
Deterrence) as a total capability. In other words, do not just 
look at the ICBM missile and then separately look at the 
missile alert facility and separately look at some other 
component, but to look at the entirety of it because it needs 
all of those pieces in order to be a strategic deterrent. So 
that is the approach we are taking and it is going to be moving 
along.
    Senator Daines. Speaking of the MAF, you brought that up. I 
was at Mike-1 there by Lewistown, went down in the silo a 
couple months ago. I am looking forward to what we can do to 
upgrade certainly from a capital improvement viewpoint. It was 
like a throwback back to the disco days of the 1960s and 1970s 
looking at that facility, and I am looking forward to working 
with you to upgrade those facilities there for the men and 
women who protect us every day.

                  C-130 AVIONICS MODERNIZATION PROGRAM

    I want to pivot over and talk about the avionics 
modernization program, the C-130 Hercules. It is something that 
I know many of us on this committee care deeply about. In 
Montana, we have got the C-130H1's, and their ability to remain 
operational past 2020 relies on this critical upgrade. So what 
is the status of the AMP upgrades for the C-130's?
    General Welsh. Senator, the Avionics Modernization Program 
(AMP) increment 1 and 2 are fully funded. The timeline is we 
should complete the increment 1 modifications to allow people 
to operate both within Federal Aviation Administration (FAA) 
guidance and the International Civil Aviation Organization 
guidance by the beginning of 2020, calendar year 2020. So we 
intend to complete that program no later than December of 2019, 
and we have the funding in place to do it. The detailed plan 
for which units, which tail numbers will be modified first is 
in works right now and will be published late this spring. It 
is being done with the adjutant generals, C-130 wing commanders 
from all three components, and Air Mobility Command is leading 
that effort. General Carlton Dewey Everhart II has the lead for 
that.
    The second phase, the increment 2, the modernization of the 
aircraft, actually is also funded in our long-range plan, and 
we will complete that by 2028.
    Senator Daines. In terms of flight readiness and so forth, 
do you anticipate any interruptions between now and 2020?
    General Welsh. No, sir, we do not. And we do have the 
ability if there is some issue that raises its head between now 
and then, we can go to the FAA and request a waiver for 
aircraft that have not been modified by January 1st of 2020, 
but we do not want to do that.
    Senator Daines. Okay.
    In my limited time, I want to go back over to the ground-
based strategic deterrent issue. $68.7 million were requested 
this year for the Minuteman III modification, and there are 
$533.5 million requested over the next 5 years to keep it 
operational under the ground-based strategic deterrent. Can I 
have your commitment certainly to your delivery on time of this 
new system? I know we have got kind of a bridge here, but this 
new system is going to be critical I think for us. I assume we 
are committed here to delivering that on time.
    Ms. James. That is what we are going to be working towards, 
and you certainly have my commitment. Of course, if technical 
things crop up, things of this nature, but you have my 
commitment and General Welsh's commitment that nuclear is 
number one for us and we are going to keep these things on 
track.
    Senator Daines. Okay. Thank you very much.
    Senator Cochran. Thank you. The time of the Senator has 
expired.
    The Senator from Washington, Ms. Murray.

                             KC-46A BASING

    Senator Murray. Thank you, Mr. Chairman. I want to thank my 
colleagues for allowing me to jump ahead of you here today.
    Secretary James, I wanted to ask you. In your remarks, you 
mentioned the incredible work that our Air Force tankers have 
done historically and most recently in coalition efforts in the 
Middle East. Just last year, tankers transferred more than 1.2 
billion--billion--pounds of fuel to other aircraft. The demand 
is growing and tankers are really critical to our ability to 
operate around the world. But as we all know, the tanker fleet 
is aging, and we all understand the need to continue the 
replacement of the KC-135.
    So I was really concerned when I heard the Air Force is 
considering cutting by a third the number of tankers we are 
going to buy for main operating base 4. And I wanted to ask you 
why you are considering a reducing basing option with only 24 
tankers instead of 36 for main operating base 4.
    General Welsh. Senator, what we are doing in the criteria 
is so that we can look at a broad range of the bases who are 
eligible and capable of operating KC-46's from them. As we 
score those bases, the idea is to look at total force solutions 
for the active, the Air National Guard, and the Air Force 
Reserve that, given our current fiscal constraints, offer best 
value to the Air Force. Every wing that we have cannot handle 
36 aircraft, so we are looking at both 24 and 36. We know from 
previous basing actions that hangers, ramp space, and other 
military construction project requirements can drive 
significant upfront costs. Thus, in some scenarios, a bed down 
of 24 aircraft vice 36 might offer best overall value to the 
Air Force. Since we have not yet analyzed 24 aircraft options, 
lets us do the assessment up front so that we can now use in 
the next couple of cycles.
    Senator Murray. Well, we have talked about this a lot, but 
I want to emphasize it again today. If the Air Force is 
committed to its plan to buy the full number of tankers and 
rebalance to Asia and support operations around the world, 
Fairchild Air Force Base is the absolute best location for main 
operating base 4. It can handle the 36 aircraft. It is 
strategically located, as you know, and is close to some of our 
other important bases. We have invested a lot in making sure 
that Fairchild is ready for the new tankers. So I hope you will 
quickly complete the selection and I think look at what we need 
in terms of the full tanker base.

             SEXUAL ASSAULTS AT THE U.S. AIR FORCE ACADEMY

    The other question I just wanted to ask you about was the 
DOD's Sexual Assault Prevention and Response Office that 
recently released its annual report on sexual harassment and 
violence at the military service academies. It showed that the 
Air Force Academy continues to struggle in stopping sexual 
assault. And I appreciate how hard it is to change culture in a 
large organization, but strong leaders and a culture that 
categorically forbids sexual assault is essential to reversing 
that trend.
    So I wanted to ask you how you account for the astonishing 
increase in sexual assaults at the Air Force Academy, 49 in 
this last academic year.
    Ms. James. Well, Senator, I want to just begin by saying 
sexual assault is a scourge upon all of us, and we are working 
very hard to reduce it, with the ultimate goal of eliminating 
it. And there are all kinds of efforts that are directed toward 
that action.
    I do think we have a very strong leader at our Air Force 
Academy, Lieutenant General Michelle D. Johnson, and I know she 
is working this hard as well. I am going to have to go back and 
consult a little bit more with her to get any new thoughts that 
she has about new actions that we should consider taking. But I 
can tell you that the leadership of the Air Force at various 
levels is working this very hard, everything from adding more 
coordinators, more personnel, different types of training, 
peer-to-peer approaches. So there is a lot going on to advance 
on this important topic.
    Senator Murray. I really want you to go back and talk to 
her, and I want to find out what the answer is and what we are 
doing to change the culture. It cannot just be words at a 
committee hearing. It has to be action. And these numbers 
continue to be really disconcerting.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Maine, Ms. Collins.

                            AERIAL REFUELING

    Senator Collins. Thank you very much, Mr. Chairman.
    General Welsh, I was very pleased to hear both you and the 
Secretary acknowledge the enormous contributions made by our 
Air National Guard and Reserve.
    And I want to thank you, General Welsh, for coming with 
your wife last winter to visit the air refueling wing in 
Bangor. I know that meant a lot to the men and women serving 
there.
    That wing is about to deploy four aircraft with 379 support 
personnel to CENTCOM. That represents one of the largest 
deployments in the past decade.
    Meanwhile, back at home, they have to maintain the 24/7 
refueling capability which the U.S. Supreme Allied Commander of 
Europe, General Breedlove, has called a critical capability.
    How does the budget request address the increasing demands 
that are being placed on our Guard and Reserve as you balance 
funding across the total force?
    General Welsh. Senator, there are a couple of things. One 
thing specifically related to the tanker fleet that is not 
obvious in the 2017 numbers, but if you look through the Future 
Years Defense Program (FYDP) at the bringing on the KC-46, our 
intent is actually to increase the number of tanker airframes 
we have from 455 up to 479 and then start divesting the KC-
135's after that point. So we need to build the fleet up a 
little bit to make sure that we have a robust enough fleet that 
we are not overtaxing the units who are constantly deploying 
from all three components.
    In the tanker fleet, approximately one-half (53.6%) of our 
air refueling fleet is actually in the Air National Guard and 
Air Force Reserve, not in the active duty. And that adds an 
additional not mobilization but voluntary mobilization for 
members of those units, and they have been doing it for going 
on 25 years now and remarkably well. And so everything that we 
have been doing with the active duty tanker fleet we are doing 
for the Air National Guard and Air Force Reserve tanker fleet.
    Every one of these issues that I mentioned previously to 
Senator Leahy's question about authorities and ability to 
change statuses quickly, to move people on and off active duty 
back into Air Force Reserve or Air National Guard duty allows 
them to volunteer more often and not get hung up in the 
administrative of the status change. That will help the unit in 
Bangor, Maine immensely. As you know, they are very frustrated 
by this as is everybody else in the system. And so we will 
continue to work this, but we are working it as a total force. 
The demand is high everywhere for us right now. And they do not 
mind the work because it is important work, but anything we can 
do to remove the frustrations as they try and get on and off 
status to do the job would be very helpful.

                REMOTELY PILOTED AIRCRAFT PILOT SHORTAGE

    Senator Collins. Exactly. Thank you.
    Secretary James, an important manpower issue that is facing 
the Air Force and that affects operations is the shortage of 
drone pilots. It is my understanding that last year 240 drone 
pilots departed the career field. And I remember last year 
General Welsh testifying that the Air Force was only capable of 
training 180 drone pilots a year despite an annual need of 300.
    Are you still facing the same kinds of shortages and 
retention problems? And if so, is there a way that we could 
assist you in filling that very important gap?
    Ms. James. So maybe let me start but then yield to you, 
Chief, for some additional context.
    So we are doubling the training capacity, number one, in 
order to get our pipeline up, get more people trained. So 
hopefully that piece of it over the next year or so will be 
better resolved. By the way, this is an area where every time 
we think we are meeting the requirement, the requirement tends 
to go up because the combatant commanders around the world 
always want more and more and more ISR (Intelligence, 
Surveillance, and Reconnaissance). But we are doubling the 
ability to train people. So we think that is going to help 
quite a bit.
    I mentioned we are putting in place better incentives to 
retain people into the career field. We are working on quality-
of-life matters. We are calling upon our Air National Guard and 
Air Force Reserve more to help us. We are selectively using 
more contractors to help us. All of this is designed to 
increase the number of people in the RPA world because the 
requirements are going up. And by the way, the quality-of-life 
issues are serious. So we need to make it a little bit less 
stressful for the people who are currently doing this important 
work, and by infusing more people into the enterprise, we think 
it will become less stressful.
    Senator Cochran. The time of the Senator has expired.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, I would just ask unanimous consent that I be 
permitted to submit some additional questions on JSTARS, an 
issue at a DFAS center in my State, and several other issues 
for the record.
    Senator Cochran. Without objection, so ordered.
    Senator Collins. Thank you.
    Senator Cochran. The Senator from Hawaii, Mr. Schatz.

                            ENERGY ASSURANCE

    Senator Schatz. Thank you, Mr. Chairman.
    Secretary James and General Welsh, thank you for your 
service.
    Secretary James, when it comes to electricity, as you know, 
the Air Force is different in that it operates from its bases 
in the United States to support warfighters around the world 
and that affects its energy needs. If the grid goes down, for 
example, the airmen at our bases in Creech, Cannon, or Beale 
flying drones in Afghanistan cannot support counterterrorism 
operations. Energy assurance is therefore critical for the Air 
Force in a different way, and yet most of our bases rely on 
power from a brittle, old civilian electricity grid. And so how 
is the Air Force investing in energy security, grid stability, 
and assured power to protect its warfighting mission?
    Ms. James. So we have a saying in the Air Force, part of 
mission assurance is energy assurance. And probably looking 
back over time, we have not had enough of a focus in this 
direction. So going forward, we are going to try to do more. We 
are going to try to do better.
    And I would just bring to your attention a couple of new 
things on the horizon.
    First, we have directed the standup of an office of energy 
assurance to be our center of excellence and to kind of drive 
the train on our efforts going forward for strategic energy 
agility.
    And the second thing is we are launching a program called 
REDI, which stands for Resilient Energy Demonstration 
Initiative, and that is specifically to develop a handful of 
pilot projects to push the envelope on energy assurance. And 
one of those is going to be at the 154th Air National Guard 
Wing.
    Senator Schatz. Thank you.

                           MAUI SUPERCOMPUTER

    Here is another issue for the PACOM AOR (Pacific Command 
Area of Responsibility). We have two assets on the island of 
Maui. We have a supercomputer and a space surveillance site. 
The surveillance site collects the data protecting our 
satellites from space debris and potential threats from 
adversaries, but then it sends it back to the continental 
United States for processing. We have a supercomputer on Maui, 
but it is not part of the SCI network.
    And so it seems to me that the delay that we are having in 
terms of wanting that real-time data could be resolved if we 
considered making the Maui supercomputer part of the SCI 
network. And I know these are preliminary thoughts, but I am 
wondering whether you would be willing to take a look at the 
possible synergy. It is on the same island. And you would be 
able to resolve the problem of having delays in processing of 
data. And some of these decision analytics are pretty time-
sensitive, and the fact that we are sending it back to the 
mainland and getting the data later than we need it I think is 
something that we need to resolve.
    Ms. James. Yes. Let us take it back and talk to the team, 
and we will get back to you on that, Senator.
    [The information follows:]

    There is a long history of synergy between the Air Force Research 
Laboratory's Maui Space Surveillance Complex (MSSC) and the Maui High 
Performance Computing Center (MHPCC), a critical mission area of Space 
Situational Awareness (SSA).
    The MSSC data and imagery is collected for many purposes including 
protecting our satellites from space debris and potential adversaries. 
Typically, the SSA data collected is at the Secret or below 
classification level and is processed in near real-time on the island 
of Maui, using computers located within the Maui Research and 
Technology Park in Kihei, HI. MSSC researchers routinely utilize MHPCC 
systems and personnel to accomplish their research objectives. This 
allows the MSSC to be timely and responsive to warfighter needs, 
including the Joint Space Operations Center, the National Air and Space 
Intelligence Center, and other national security customers.
    However, there are times when satellite owners request data they 
will only allow to be processed in their own mainland facilities, due 
to a higher classification level requiring an SCI network. While the 
Air Force Research Laboratory is responsible for the daily operations 
of the MHPCC, the center is one of five DOD Supercomputing Resource 
Centers administered by the Army, as part of the DOD High Performance 
Computing Modernization Program (HPCMP). The Air Force and Army have a 
strong collaborative relationship in developing and shaping the future 
of the MHPCC as part of the overall HPCMP program. We have already 
shared your ideas about connecting the MHPCC computers to the SCI 
network with HPCMP leadership.

                      AIR MUNITIONS MODERNIZATION

    Senator Schatz. Thank you.
    This question is for General Welsh. I agree that our lead 
in the area of air superiority is shrinking and that our 
adversaries are developing increasingly sophisticated and in 
some cases superior systems. Admiral Harry B. Harris, Jr. at 
PACOM has spoken about the need for advanced weapons systems to 
defeat our potential adversaries and to operate in a contested 
environment.
    As you look at our developments of NextGen aircraft, I 
worry that we--we will probably maintain our lead on the 
aircraft side, but not necessarily have the conventional 
munitions sort of stay at the same pace. And I am wondering if 
you can talk about what the Air Force is doing to make sure 
that as we continue to invest in NextGen aircraft, that we make 
sure that we do not have sort of Cadillac aircraft and, with 
all due respect, Chevy munitions.
    General Welsh. Yes, sir. We have been actually working 
pretty hard to understand why we need to and how we can 
mitigate the risk of weapons systems that can be degraded by 
other systems, whether it is air-to-ground munitions that is 
Global Positioning System (GPS)-dependent or it is an air-to-
air munition that is susceptible to Digital Radio Frequency 
Memory (DRFM) jamming, for example. There are things that we 
have got to be aware of as we build new weapons for our 
inventory. All that is factored into the planning we are doing 
for the next 10 years worth of weapons inventory.
    I am actually pretty confident that we have a good plan. 
Now we have got to finalize it and get it funded and make sure 
that you and the other members of this committee and others on 
Capitol Hill who support us understand what that plan looks 
like.
    Senator Schatz. Well, that is what I was going to ask. Is 
this an appropriations issue? Is this something that is going 
to require additional funding so that the munitions can catch 
up?
    General Welsh. Sir, some of it will. Some of it is already 
included in black budgets. Some of it is stuff that we are 
working on now for 10 to 15 years and out. And some of it is 
relatively near-term that the Congress has helped us with. Some 
of the conventional munitions problem we have is just a matter 
of replacing inventories and being able to replace weapons that 
we are dropping this year in Iraq and Syria. It has taken us 3 
years to replace a weapon that we dropped, and now that you 
have allowed us to use OCO to do that based on projections, 
that is a huge plus for us.
    Senator Schatz. Thank you.
    Senator Cochran. Thank you. The time of the Senator has 
expired.
    The Senator from Kansas, Mr. Moran.

           KC-46A BASING AT MCCONNELL AIR FORCE BASE, KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Madam Secretary, General Welsh, thank you for your military 
and public service. Thanks for the opportunity to have a 
conversation today.
    Fortunately, one of my priorities is one of the Air Force's 
priorities, and that is the KC-46A. And I would be delighted to 
have you bring me up to date, to bring the committee up to date 
on the current manufacturing state of that aircraft, the 
circumstance we have with its basing, and the infrastructure 
that is required at McConnell to accomplish the mission of the 
KC-46A tanker program.
    And, Madam Secretary, I understand that you and I are still 
working on a time in which you are going to visit McConnell, 
and I welcome that. I understand that you proposed a date and I 
have accepted. So I do not know what that means in our 
relationship, but I appreciate the circumstance that I now find 
myself in.
    Ms. James. Great. Well, I will say overall the program, the 
KC-46A program, remains on track, I will say, to meet that next 
contractual milestone, which is what we call 18 Primary 
Aircraft Authorized (PAA), by the timeframe. I will say there 
is like very little to no margin left in that timeframe. There 
have been some developmental delays which may delay some of the 
fielding by a few months.
    With respect to McConnell Air Force Base, Kansas, I would 
just say that the Military Construction (MILCON) to support the 
KC-46 is on schedule. We are projecting aircraft to be arriving 
in the March of 2017 timeframe, if I am not mistaken. And so 
that is all looking good, and I am looking forward to making a 
visit.
    Senator Moran. Thank you.
    And I also understand that the military construction budget 
includes construction of an air traffic control tower, and I 
appreciate that, assuming that that is true.
    General Welsh. Yes, Senator, it is true. It is funded for 
fiscal year 2017, and the other 12 projects that are ongoing 
are also fully funded to support the beddown of the KC-46.
    Senator Moran. Very good. If there is any way that I can be 
of help in regard to any of these issues, please let me know. 
We would be considered the place for the basing of the KC-46A 
tanker. Spirit AeroSystems, also headquartered in Wichita, 
Kansas, is the manufacturer of the fuselage. And so the 
manufacturing process--we are pleased to hear of its current 
timeliness and compliment them as well.

                             CYBERSECURITY

    Let me turn to the issue of cybersecurity. We had a 
conversation in the last opportunity that I had to question you 
in particular about the Air National Guard and its role. We 
have the 177th located at McConnell Air Force Base. They are a 
red team, NSA-certified, the only Air Guard unit with that 
designation. And my goal and my conversations with you 
previously have been to try to make certain that the components 
that you mentioned, General, are coordinating their efforts and 
that the skill set and capabilities of that red unit at 
McConnell are being recognized and fully integrated into the 
cybersecurity efforts by the entire Air Force.
    And in particular, I want to raise two issues.
    One is resources. There have been and continue to be 
positions that are unfilled, and that is related to resources. 
And we need to make certain that that is not a continuing 
problem.
    The second part is training. We want to make certain that 
there is consistent and available training for those who work 
in those units, both active and Reserve component.
    And I would welcome your thoughts about both those issues: 
the resourcing necessary to have the number of personnel and 
the capabilities to train current and future staffing 
decisions.
    General Welsh. Senator, when the Air National Guard came 
out last year with their plan to expand this unit--so the unit 
will go, as you well know, from a group to a wing this year--
part of that discussion was do we have the mission requirement 
for these additional units. The answer to that was yes. The 
second half was do we have the resources to support this. Can 
the Air National Guard recruit from the community? Can we build 
these units and make them a viable contributor to both the 
State and to the Nation on the national security side of the 
house? The answer to all those questions is yes.
    The unit is just transitioning, and so I do not know if the 
positions you are talking about are positions that just have 
not filled because we have expanded the unit and we have not 
filled them yet. I will check with Air National Guard and get 
back to your staff on where we stand with that and what the 
issues are, if there are any issues, or if they are just in the 
build process.
    [The information follows:]

    The manpower changes in the Cyber Operations Group (177th 
Information Aggressor Squadron and 127th Cyberspace Operations 
Squadron) at McConnell Air Force Base, KS, were impacted by the fiscal 
year 2014 National Defense Authorization Act which placed a hold on 
manpower movements in Air National Guard cyber units pending a mission 
analysis of cyber in the Department of Defense and a report containing 
the results to Congress. The report was completed and turned in 
September 2014; however, the Air National Guard extended the force 
structure hold to allow for more thorough development of Cyber Mission 
Force guidance and establishment of clear budgetary direction. With the 
release of fiscal year 2016 National Defense Authorization Act the Air 
National Guard was confident in the overall resourcing of the cyber 
enterprise and moved forward with planned force structure changes in 
the cyber mission area. The Kansas National Guard leadership received 
manpower templates for these units in May of 2015. The unit manning 
documents are being processed and are scheduled for release to the 
state in April of 2016.

    General Welsh. On the mission side, the entire Department 
of Defense is still feeling its way into the cyber domain. Our 
focus up till today has been on filling the cyber mission force 
supporting U.S. Cyber Command on behalf of the Nation and on 
behalf of combatant commanders. All the services have been 
focused on that. We have a couple more years to go until those 
are fully manned. The Air National Guard does play a major role 
in that.
    That is not what this unit is needed to do. So the unit in 
Kansas will be one of the units that we use to start building 
the broader cyber capability inside our Air Force. How do we do 
our core missions in, through, and from the cyber domain? And 
that is the intent. This unit will be part of that effort 
directly, indirectly, or as a red team supporting that effort 
over time.
    So that is the intent for the unit's future mission. It 
just does not have a lot around it in terms of the rest of the 
Air Force doing this mission yet. So it is going to be a little 
bit of a slow start on the mission side, and they will augment 
the effort that supports the national side under title 50 for 
National Security Agency (NSA) or Title 10 for U.S. Cyber 
Command because you have a lot of really talented people who 
have done this business for a while in that unit.
    Senator Moran. Thank you, General. And we are happy to be 
at the forefront and look forward to using our expertise to 
help the Air Force fulfill its cybersecurity mission.
    And again, Madam Secretary, I look forward to being with 
you in Kansas in the near future.
    Ms. James. Thank you.
    Senator Moran. Thank you, Mr. Chairman.
    Senator Cochran. The time of the Senator has expired.
    The Senator from Montana, Mr. Tester.
    Senator Tester. Thank you, Mr. Chairman.
    And thank you both for being here. Secretary James and 
General Welsh, we very much appreciate your service to the 
country.
    And I will follow on the Senator from Kansas' lead, 
inviting you out to Montana. We would love to have there and/or 
both of you out at any point in time. We are very proud of our 
Air Force and the Air Guard in Montana.
    I believe you said earlier, Secretary James--and do not let 
me put words in your mouth--that the nuclear mission was the 
number one priority.
    Ms. James. It is number one, yes.

                    NUCLEAR DETERRENCE MODERNIZATION

    Senator Tester. So tell me three things in this budget that 
makes investments in the nuclear arsenal that will make it 
operational for decades to come.
    Ms. James. Well, we have talked some about the ground-based 
strategic deterrence.
    Senator Tester. Okay. That is one.
    Ms. James. That clearly is important.
    We have the long-range strike bomber, which will, of 
course, be nuclear capable. That will be part of our air 
component.
    We have the B-61 that we are investing in.
    We have the LRSO, the long-range standoff weapon.
    And of course, the people of the nuclear enterprise are 
extremely important, and we continue to invest in them.
    Senator Tester. And I appreciate that. I appreciate all 
those investments and that investment.
    How about specifically for the ICBMs?
    Ms. James. How much did you say?
    Senator Tester. Yes. How much is being invested in there 
and how important are they as far as the nuclear deterrent?
    Ms. James. Give me one second here. If you find it before 
me, chime in, Chief.
    General Welsh. Yes, ma'am.
    Senator, we have on the Ground-Based Strategic Deterrent 
(GBSD) side--we have over the FYDP--it is over $3 billion. We 
have Nuclear Command, Control, and Communications (NC-3) 
modernization for almost half a billion. We have New Strategic 
Arms Reduction Treaty (START) work that continues for about $50 
million, a little under that, $48 million. We have the 
Minuteman III modernization, moving it to the 400 for New 
START. That is another $1.6 billion. We have got the UH-1 
recap, et cetera, et cetera. There is a lot in here that has to 
do with the ICBMs.
    Senator Tester. Well, I think it is important because there 
are some that think that the ICBMs are no longer relevant, and 
I believe them to be very much relevant and cost-effective to 
boot.
    So being on the MILCON Subcommittee, a partner of this 
committee, there is going to be a facility I think in the works 
for Malmstrom to house a new helicopter fleet by 2019. I bring 
that date up because in previous questioning, you did not bring 
up a date certain for those helicopters to arrive and probably 
for good reason. Can you assure me they will at least be there 
by 2019?
    Ms. James. I would certainly hope so, and I am pushing to 
make it earlier than that.

                              C-130 BASING

    Senator Tester. Okay, good. I appreciate that very, very 
much.
    I want to talk a little bit about--the C-130 is one of our 
favorite topics, and we appreciate all you have done for the 
Air Guard in that regard. There are some C-130's that are 
supposed to become available out of the North Carolina base 
because they are replacing them with C-17's and good on them. 
But the question is, what do we have to do to get those C-17's? 
Because they are a little newer model than we have in Montana.
    Ms. James. You mean the C-130's?
    Senator Tester. I mean the C-130's. I will take C-17's too 
as far as that goes.
    Senator Tester. No, the C-130's.
    General Welsh. Senator, I am not sure exactly what the 
distribution plan is for the airplanes that are coming out of 
Pope Field, North Carolina. Let me go check and I will get back 
to your office.
    Senator Tester. That would be great.
    [The information follows:]

    Air Mobility Command is working on a plan for re-basing the C-130J 
models. We expect that plan to be finalized by May 2016.

    Senator Tester. And in that regard, they have some modular 
airborne firefighting systems also in North Carolina. And I 
would just ask this to either one of you. Would you not agree 
that the best place to put those MAFs are in places where we 
have a lot of wooded area like west of the Mississippi?
    General Welsh. I do not know how to answer that question 
any other way than yes.
    Senator Tester. Thank you. Thank you very much. I 
appreciate that.
    Well, look, I mean, I think it makes sense. I look at 
Senator Murkowski when I say this, but truthfully, I mean, the 
firefighting happens--it is starting to happen in your neck of 
the woods more and more, but also west of the Mississippi. And 
I would hope that you would take that into consideration when 
you bed those down at their new location because I can tell you 
that the fire seasons--you know--are getting longer. They are 
getting more intense. We could absolutely utilize those. We 
have access to more acreage of forest up there in the State of 
Montana alone than in the Northeast. So I appreciate that.
    I just want to end by saying we would love to have you out 
in Montana. We are very proud of what you have done and what 
the airmen have done there. And we look forward to working 
together and increasing the capabilities and making our Air 
Force as successful as it can be in the threats that impact us 
around the world. Thank you.
    Ms. James. Thank you.
    Senator Cochran. The Senator from Alaska.

                         F-35 BASING IN ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Welcome, Secretary, General Welsh. Good to see you both.
    I want to ask specific questions as they relate to the F-
35's. And within your budget request, we have got $295.6 
million in MILCON that is associated with the beddown of the F-
35's there at Eielson. We are still waiting for the publication 
for the final EIS and the record of decision on that. But I can 
tell you that interior Alaska is very proud, very excited to be 
the first base to host the F-35's in the Pacific, and Alaskans 
are looking forward to this. I think you both know that.
    We also know that there are some naysayers out there that 
believe that the plane is not going to be capable of meeting 
its mission, not ready within the 2019-2020 time-frame to meet 
the mission in the Pacific. There are other naysayers that say 
it is going to be so expensive we are never going to see it 
materialize in Alaska. I do not think that that is true, and I 
hope that you do not either. You have mentioned, Secretary 
James, the fact that you are going to be deferring several of 
the aircraft in 2017.
    But the question that I would ask you this morning is just 
generally why is it so critical. Why is it so important that 
the F-35's be placed where we are proposing there in the 
interior? Why is it necessary to do it now? And do you foresee 
any other issues that should concern us with either the buy or 
the capability of the airplane that would cause greater 
concern? So basically just a status update on the F-35's and on 
their significance in having them positioned, as has been 
suggested, in the interior of Alaska.
    Ms. James. I would just begin by stating that the 
capability that the F-35 will bring to us is just very, very 
important for the Nation as we look to the defense against 
these so-called high-end threats, and placing them in Alaska, 
of course, is part and parcel of looking toward the Pacific 
being prepared to respond to problems that could occur in the 
Pacific. So Alaska is a very strategic location. I mean, the 
Chief can talk more about that.
    As for how the program is going, please keep in mind it is 
still a program in development. And if you look back to our 
other major development programs throughout our history as an 
Air Force, those too had challenges that had to be overcome. 
That piece of it is not unusual. So we are working through 
those challenges. We still believe that we will hit the Initial 
Operational Capability (IOC) in the timeframe that we have 
previously said.
    There are some challenges, though. We worry about the 
software. We worry about the Autonomic Logistics Information 
System (ALIS). But we still think we can overcome and hit that 
IOC timeframe. We believe the maintenance manning, which was a 
huge challenge there for a while--we believe we are okay for 
that now because we are going to use contractors and take some 
different approaches to help get us over the hump for the IOC, 
but we are still worried about the full operational capability 
period because of the maintenance.
    Senator Murkowski. Excuse me for interrupting, but can you 
speak a little bit to that aspect of it? Because it is a 
critical concern, and knowing that there is going to be an 
adequate staff of maintenance there--you mentioned contractors. 
Can you go into a little more detail there for me?
    General Welsh. Senator, we have basically thrashed a little 
bit over the last couple years to figure out how to find 
maintenance manpower that we had planned to take from other 
systems. We do not have 1,500 maintainers sitting around 
waiting for work to transition to the F-35. And when we could 
not divest other systems to now take that maintenance manpower, 
we had to figure out where to find active duty maintenance to 
go to operational units.
    So in training units, we are using contractors for 
temporary periods, we hope, because we have to create 
deployable blue suit maintainers over time. But as we move 
through the next 4 to 5 years, we can use contractors at 
training units for not just the F-35 but other types of 
aircraft, everything from RPAs to other fighter units, to take 
active duty manpower out of those units to create enough to 
develop F-35 operational units in the initial beddown at Hill 
Air Force Base, Utah in particular.
    As we get closer to full operational capability of this 
aircraft and we have more squadrons fielding, we need to get at 
active duty Air Force maintainers and have them available to 
stand up operational bases like Eielson Air Force Base, Alaska, 
which is why we cannot delay divesting other systems forever.
    Senator Murkowski. Specifically the A-10's? How much of an 
impact has that been?
    General Welsh. The A-10 is one of them.
    Well, it is an impact, but there are reasons for it. I 
understand that. And we have adjusted to those impacts. But the 
adjustments that we are making we cannot continue to make. 
There are not a lot of other roads we can run down to find more 
manpower. And as a result, eventually we are going to have to 
transition maintenance guys out of other systems and put them 
in the F-35 unless our top line goes up and we are allowed to 
just grow more Air Force, which I am not anticipating in the 
next couple years. That is the tension.
    As far as why the F-35 now, the airplanes are being 
fielded. This is not a PowerPoint program anymore. About a year 
from now, we will have 100 F-35's in our Air Force inventory. 
We have already flown 45,000 hours on this airplane 
collectively. We are about 5 years into the rebaselining from 
2011, and the milestones we have tracked to have been the 
milestones from that rebaselining. None of the problems you are 
hearing about in the paper are new problems. Software has been 
an issue and the projection is it will be 4 to 6 months behind 
for the last 4 to 5 years. So we are continuing to grind on 
these things. We will solve them. I am confident we will reach 
IOC at the end of this year.
    And I am very excited about getting the airplane to Alaska 
for two reasons. Partners in the Pacific want to buy the F-35. 
We can train with them in Alaska like we can train very few 
other places in the world. The range air space there is 
phenomenal. And that location--as we have talked before, 
geography does matter. And Alaska is blessed with it. Getting 
to the Pacific in support of our allies quickly, in support of 
U.S. interests quickly from there is much easier to do than 
from other places.
    Senator Murkowski. You make my point. Thank you. I 
appreciate the leadership from both of you and your commitment 
to serving us.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. We appreciate your 
contributions to the hearing.
    We also thank all of our witnesses and their continued 
assistance to the committee. We are grateful for your service, 
and we look forward to a continuing dialogue throughout the 
fiscal year 2017 appropriations process.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senators may submit additional written questions, and we 
request that if they are submitted to you, we hope you will 
respond within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Deborah Lee James
               Question Submitted by Senator Thad Cochran
                       uh-1n replacement program
    Question. Secretary James, the Air Force is planning a Milestone C 
decision for the UH-1N Replacement Program in the second quarter of 
fiscal year 2017. During the Senate Appropriations Committee, Defense 
Subcommittee hearing on 10 February, 2016, you were asked to comment on 
the status of the UH-1N replacement program and you stated that one 
possibility would be to address the most urgent piece of this 
requirement, possibly through a sole-source situation. The 2016 OMNIBUS 
Appropriations Act contained report language that encouraged a 
competition-based acquisition strategy.
    Can you elaborate on the Air Force's acquisition strategy and 
timeline regarding the UH-1N Replacement Program?
    Answer. Consistent with the 2016 Appropriations Act recommendation, 
the Air Force is pursuing a full and open competitive acquisition 
strategy for the UH-1N replacement program. We are working to fully 
define the program content and timeline and anticipate contract award 
in fiscal year 2018. Additional details will be available when the 
acquisition strategy is finalized.
                                 ______
                                 
             Question Submitted by Senator Lamar Alexander
                    consolidated lodging operations
    Question. The 2005 Base Realignment and Closure (BRAC) process 
consolidated 26 service-specific stand-alone installations into 12 
joint bases in order to take advantage of efficiencies. Most joint 
bases have consolidated operations--their lodging operations in 
particular. Joint Base San Antonio (JBSA) is one of two joint bases 
where lodging has not been consolidated, resulting in two operations--
one at Fort Sam Houston that was privatized through the Privatized Army 
Lodging program and another that is operated by the Air Force and 
continues to be challenged by underfunding and undercapitalization. 
According to the Government Accountability Office (GAO), JBSA has yet 
to fulfill the mission of joint basing, and specifically has not 
consolidated its lodging. It is my understanding that the Air Force has 
the authority through the Army's Privatized Army Lodging program and 
the Military Housing Privatization Initiative (MHPI) to privatize 
undercapitalized lodging operations at JBSA. Fully integrating JBSA 
lodging operations under a single privatized program would allow the 
Air Force to recapitalize the balance of the JBSA rooms while not 
diverting appropriated funds away from the lodging program.
    What is the timeline for the Air Force to consolidate lodging 
operations at JBSA?
    Answer. The Air Force and Army continue to work joint basing 
initiatives in pursuit of maximizing efficiencies and persist in 
reviewing the way each Service manages lodging operations as a standard 
practice. While the Army views privatized lodging as the appropriate 
way to recapitalize their lodging program, the Air Force views on 
recapitalization are substantially different. The Air Force's lodging 
facilities are in overall good condition. We continue to examine 
opportunities and models (to include privatized lodging) to improve 
effectiveness and find even greater efficiencies in managing the Air 
Force lodging.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                            dfas--limestone
    Question. Secretary James, I recently learned about a very 
concerning issue at the Defense Finance and Accounting Service (DFAS)--
Limestone related to the implementation of the Defense Enterprise 
Accounting System pilot program. This computer system is intended to 
streamline processes and provide accurate and timely financial 
information to customers. I have learned, however, that the system's 
flaws are causing payment backlogs, increasing staff workloads, and 
damaging morale. The problems are also increasing personnel costs 
because staff is required to work overtime to clear the backlogs 
created by the system. I have been told that despite the system's 
flaws, the Air Force intends to deploy the program DFAS-wide in 2017. I 
do not understand this based on the numbers of flaws and costs 
associated with the program.
    Please explain why the Air Force will not consider delaying further 
implementation across DFAS until these issues can be better addressed.
    Answer. Because Defense Enterprise Accounting and Management System 
(DEAMS) is essential to the Department of Defense meeting statutory 
audit readiness requirements, it is important we keep deployment on 
track. The Air Force is currently reviewing the capability and 
deployment schedule for DEAMS after a February 2016 review with the 
Office of Undersecretary of Defense for Acquisition, Technology & 
Logistics Milestone Decision Authority. A final schedule is anticipated 
to be approved and disseminated in July 2016.
    The Air Force continues to deliver hardware and software 
enhancements to improve processing time and reduce workload associated 
with the payment backlog. The needs of DFAS remain a key consideration 
and are being taken into account as the schedule is being revised.
                         jstars capability gap
    Question. General Welsh/Secretary James--According to your own 
Analysis of Alternatives completed in 2012, the most cost effective and 
rapid approach to recapitalize the JSTARS fleet is to integrate mature 
technologies on an existing business-jet platform. Despite the fact 
that Congress has supported the AoA and directed the Air Force to 
accelerate JSTARS recap the last 2 years; the program has repeatedly 
been slowed down by the Pentagon's internal acquisition bureaucracy.
    What are you doing to ensure that this program is fielded quickly 
to avoid an impending capability gap?
    Answer. The December 2015 Milestone A approval was a critical step 
in recapitalizing JSTARS. Initial operational capability is currently 
planned for fiscal year 2024. The program is spending more time 
reducing risk in the early phase of the program to support fielding the 
right capability as early as possible. The risk reduction work in 
fiscal years 2015-2017 is critical for program success and provides 
engineering, decision quality data to inform the program and preserve 
the option to accelerate the program in the future.
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham
                        jstars recapitalization
    Question. General Welsh/Secretary James--According to your own 
analysis of alternatives (AoA) completed in 2012, the most cost 
effective and rapid approach to recapitalize the JSTARS fleet is to 
integrate mature technologies on an existing business-jet platform. 
Despite the fact that Congress has supported the AoA and directed the 
Air Force to accelerate JSTARS recap the last 2 years, the program has 
repeatedly been slowed down by the Pentagon's internal acquisition 
bureaucracy.
    What are you doing to ensure that this program is fielded quickly 
to avoid an impending capability gap?
    Answer. The December 2015 Milestone A approval was a critical step 
in recapitalizing JSTARS. Initial operational capability is currently 
planned for fiscal year 2024. The program is spending more time 
reducing risk in the early phase of the program to support fielding the 
right capability as early as possible. The risk reduction work in 
fiscal years 2015-2017 is critical for program success and provides 
engineering, decision quality data to inform the program and preserve 
the option to accelerate the program in the future.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                          a-10 divestment plan
    Question. Secretary James and General Welsh, you are well versed in 
the ongoing discussion regarding the future of the A-10. I am proud to 
represent the men and women of the 442nd Fighter Wing at Whiteman Air 
Force Base, Missouri. With the Air Force's decision this year to delay 
retirement of the A-10 until 2022, at the earliest, I wanted to discuss 
with you the impact of that decision on maintenance issues regarding 
the F-35 and F-16.
    Can you please describe the new A-10 divestment plan? What is the 
plan for the F-16s at Hill Air Force Base as more F-35s come online?
    Answer. The fiscal year 2017 President's Budget request re-phases 
A-10 retirement over 5 years beginning with two squadrons in fiscal 
year 2018. Also in our PB17 request, F-16s at Hill Air Force Base, 
Utah, are programmed to replace A-10s at Whiteman Air Force Base, 
Missouri, and Fort Wayne, Indiana, beginning in fiscal year 2018. As A-
10s are retired, pilot and maintenance expertise at Whiteman and Fort 
Wayne will remain to support the new F-16 mission. We will continue to 
analyze our force structure and be prepared to make adjustments based 
on world events, global threats, and fiscal realities.
                       f-35 maintenance challenge
    Question. Secretary James and General Welsh, you are well versed in 
the ongoing discussion regarding the future of the A-10. I am proud to 
represent the men and women of the 442nd Fighter Wing at Whiteman Air 
Force Base, Missouri. With the Air Force's decision this year to delay 
retirement of the A-10 until 2022, at the earliest, I wanted to discuss 
with you the impact of that decision on maintenance issues regarding 
the F-35 and F-16.
    Can you discuss how the Air Force will manage the impact on F-35 
maintenance challenges by keeping the A-10 in service longer?
    Answer. Keeping the A-10 longer stresses active-duty maintenance 
manning and drives the Air Force to support costly end strength 
increases to support F-35 growth. The Air Force is on track to meet F-
35 initial operational capability maintenance manning requirements, but 
full operational capability by fiscal year 2021 remains at risk. Today, 
the Air Force has approximately 1,500 F-35 maintainers, but must grow 
to approximately 6,000 by fiscal year 2021. We do not currently have 
enough topline funding to support that level of growth. Until manning 
reaches satisfactory levels, the Air Force plans to mitigate impacts to 
F-35 maintenance by incrementally increasing end strength and 
maintenance accessions through fiscal year 2021. The Air Force will 
also temporarily convert some active-duty positions to contract 
maintenance, and cross-train approximately 1,100 active-duty 
maintainers to F-35 units. Finally, the Air Force continues to evaluate 
Total Force options to optimize F-35 maintenance manning.
                   whiteman afb replacement missions
    Question. Secretary James and General Welsh, you are well versed in 
the ongoing discussion regarding the future of the A-10. I am proud to 
represent the men and women of the 442nd Fighter Wing at Whiteman Air 
Force Base, Missouri. With the Air Force's decision this year to delay 
retirement of the A-10 until 2022, at the earliest, I wanted to discuss 
with you the impact of that decision on maintenance issues regarding 
the F-35 and F-16.
    Can you discuss the plan for replacement missions at bases such as 
Whiteman and if you still plan to move F-16s to Whiteman Air Force Base 
in the future?
    Answer. The fiscal year 2017 President's Budget request plans to 
move 27 F-16s to Whiteman AFB, Missouri, in conjunction with the 
divestment of an equal number of A-10s starting in fiscal year 2018. We 
will continue to analyze our force structure and be prepared to make 
adjustments based on world events, global threats, and fiscal 
realities.
                         b-2 fleet sustainment
    Question. Securing parts and maintaining the high-demand B-2 fleet 
is critical. I know through the hard work and resourcefulness of the 
maintenance men and women of the 509th and 131st, aircraft availability 
statistics are improving.
    What would you say contributes to this success? Have they been 
given all the tools and resources they need to thrive or are they 
patching problems here and there and still facing the same 
difficulties?
    Answer. Enterprise fleet management and improvements to maintenance 
processes and procedures are the main contributors to success. Fleet 
management initiatives include a programmed depot maintenance schedule 
that reduces the number of aircraft in depot and reduces repair cycle 
time, keeping more aircraft operationally available. The Air Force has 
also achieved a 5 to 8 percent aircraft availability increase through 
investments and streamlining low observable maintenance requirements 
that maintain the aircraft's stealth characteristics, but replace 
several maintenance-intensive repair actions that are effective but 
less complex. Additionally, the Air Force is leveraging manning and 
experience levels through Total Force Integration with the 131st Bomb 
Wing of the Missouri Air National Guard.
    While aircraft availability is improving, spare parts availability 
continues to challenge fleet readiness. Supply problems are mitigated 
through cannibalization of aircraft components, but long lead time 
contracts, no-bids for small orders and sub-component obsolescence 
issues are still affecting parts availability.
                               b-2 bomber
    Question. Can you talk a little about the continued focus on the B-
2 even as we move forward with the Long Range Strike-Bomber program? I 
want to ensure that we stay focused on the B-2 even while we 
transition. As you know, even when the new bomber enters service, which 
are years away, our Air Force will still seek a big role for the B-2 to 
meet combatant commander needs. I want to make sure that we do not let 
our concentration on solving the readiness problems with the B-2 slip 
while we are tempted to focus on the new, exciting program that is 
next.
    Answer. The B-2 has a projected service life through 2058. To 
ensure the fleet can accomplish its nuclear and conventional mission in 
highly defended and anti-access environments, periodic modernization 
efforts must be and are currently being undertaken to upgrade combat 
capability. These efforts also improve the viability, supportability, 
and survivability of the weapon system.
    Recent and ongoing investments in avionics, structures, 
communications, and weapons keep the B-2 viable in the immediate 
future. Current system upgrades include Low Observable Signature and 
Supportability Modifications, Defensive Management System 
Modernization, Flexible Strike, Common Very Low Frequency Receiver, 
Advanced Extremely High Frequency (Strategic Communications), Extended 
Range Joint Air-to-Surface Standoff Missile weapon integration, and 
Military Global Positioning System User Equipment enhancements. We are 
also exploring opportunities for B-2 architecture updates to reduce 
future integration costs and improve program affordability.
    In short, the B-2 is important to current and future Air Force 
operations and we are committed to ensuring the fleet is ready when 
called.
                    b-2 defensive management system
    Question. In your opinion, is the DMS (Defensive Management System) 
program on track and helping the part obsolescence issues and where do 
we stand with the current modernization effort and future funding?
    Answer. Yes, the B-2 DMS modernization is on track and helping the 
part obsolescence issues. The form, fit, function (F3) effort for the 
legacy DMS hardware (subset of additional parts for receivers and 
preprocessors) addresses obsolescence issues by maintaining DMS 
capability until the DMS-M fields in fiscal year 2021.
    The DMS modernization program completed the engineering and 
manufacturing development Milestone B review with the Defense 
Acquisition Executive on time and is appropriately funded in the fiscal 
year 2017 President's Budget request.
                         nuclear modernization
    Question. As there are competing demands for reduced defense 
spending and with components of the nuclear enterprise reaching their 
expiration date, can you please discuss why it is important that 
Congress continue to fund nuclear modernization programs that lie at 
the foundation to our national security?
    Answer. The nuclear triad has underpinned our Nation's ability to 
maintain strategic stability and deter nuclear attack against the U.S., 
our allies, and partners for more than 50 years. Many of its delivery 
platforms and supporting systems have reached or exceeded their 
intended service lives. Completion of the recapitalization efforts 
begun by the Department of Defense is vital to ensuring our nuclear 
deterrent remains credible and effective in the decades ahead.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                  combat controllers and pararescuemen
    Question. A 2015 GAO Report recommended `` . . . that DOD determine 
whether opportunities exist to balance deployments across the joint 
force'' in a study on the overuse of Special Operations Forces.
    Has the Air Force seen an issue with the current deployment cycle 
impacting its Combat Controllers and Pararescuemen?
    Answer. Yes, there have been significant impacts to both Combat 
Control and Pararescue Airmen given the sustained deployment cycles 
since 2001. The deployment/dwell rates are 1 to 1 for both Combat 
Control and Pararescue. However, it is not only the deployment rates 
that impact the Airman's time away from home, it is also the lengthy 
training required to prepare for each deployment. It is very common for 
our Combat Control and Pararescue Airmen to average over 220 days away 
from home every year. Additionally, this high operations tempo 
continues to degrade mission readiness across the force for these 
specialties due to the inability to retain the high levels of training 
required to maintain proficiency for the high risk events these 
exceptional Airmen execute. Finally, experience levels, and our ability 
to field our most critical ranks of senior E-6 and E-7 operators have 
been negatively impacted. We recognize repeated deployments in high 
risk environments take a toll on our Airmen and their families. 
Accordingly, we have placed significant emphasis on maintaining the 
resilience of these Airmen, have seen very positive results, and will 
be continue to be mindful of their health and safety.
                       forest fires mission saves
    Question. The Air Force Pararescuemen offer a unique lifesaving set 
of skills, drastically needed sometimes to assist civilian medical 
support teams. The Air Force cites over 5000 lives saved for civilian 
operations, approximately how many of those have been in forest fire 
missions?
    Answer. Air Force Pararescuemen have not participated in forest 
fire missions.
                            stateside safety
    Question. As our Nation continues to face increased lone-wolf 
terror attacks, what steps is the Air Force taking to ensure its Airmen 
are as safe as possible while stateside?
    Answer. The safety of the Airmen is our highest priority. A great 
amount of emphasis has been placed on our ability to integrate with 
local, Federal and other national government emergency response 
organizations to improve protection and awareness for our Airmen 
working and residing off of installations. Through proper use of social 
media and maintaining operational security we are leveraging modern 
technologies to reduce notification and response timelines.
    We recognize emergency response is only part of the equation, but 
our personnel and their family's reactions are also extremely 
important. Through an emerging Air Force Enterprise Emergency Mass 
Notification System we are able to not only push information out to our 
populous, but also allow them to push real time notification up the 
chain via a special duress application which can be loaded onto any 
mobile device. Notifications from the higher headquarters as well as 
the individuals in the field are integrated into all major commands as 
well as into our sister services, the Departments of Justice and 
Homeland Security communication centers.
    Beyond notifications, we educate all our military personnel on the 
fundamentals of anti-terrorism and open this training up for military 
families as well. Both the training and policy stress the importance 
for our personnel to sanitize their social media accounts, personal 
attire, as well as their personal vehicles to lower their public 
profile.
    Our recruiting stations pose a different challenge. We must 
maintain a very visible and accessible presence, often in remote and/or 
impoverished locations without direct oversight of a military 
installation. In response, we are preparing facility physical security 
upgrades such as ballistic window protection, closed circuit camera 
systems, remote door locks/access control systems, as well as an armed 
on sight presence. In most cases, the armed personnel will be a 
recruiter armed with a government owned handgun. In locations capable 
of direct installation support the local Air Force security forces unit 
will provide an armed presence. In all cases, the use of deadly force 
will be limited to the protection of self and others in the DOD owned 
or leased facility.
    In the locations where existing facility leases do not allow for 
the modifications to the building and/or the risk to our personnel is 
too high, Air Force members are being pulled back to operate out of the 
nearest military installation.
                           retention efforts
    Question. The Air Force has been cited in the past for having 
trouble with retaining Airmen during peacetime, especially officers in 
the nuclear-oriented job fields. What steps has the Air Force taken to 
correct this issue, and what more can be done to ensure highly trained 
Airmen are retained?
    Answer. The Air Force has experienced overall strong retention over 
the past 10 years. A review of nuclear missile operator retention rates 
shows their retention closely mirrors the rest of the line of the Air 
Force and in many circumstances is better than line of the Air Force 
over the past 10 years. We utilize force management programs such as 
special and incentive pays, accession levers, retraining, etc. to 
address specific and targeted areas that experience poor retention/
manning as well as those career fields that have a high training cost, 
most notably in the Rated Officer and Battlefield Airmen career fields. 
With an improving economy and competitive market place, retention has 
become increasingly important. Your continued support for special and 
incentive pay budgets as well as increased and flexible authorities to 
appropriately incentivize our Airmen is appreciated.
    The Air Force remains committed to providing the best support to 
build and retain ready, resilient Airmen and families. Despite 
constrained budgets, the Air Force chose to restore funding to Airman 
and family programs in the fiscal year 2016 President's Budget request 
and continues to sustain that funding in the fiscal year 2017 
President's Budget request. The Air Force continues to invest resources 
to improve quality of life programs targeting the nuclear enterprise 
community (e.g., specialized programs are available to address the 
unique child care needs of Airmen and their families deployed to 
missile sites.)
    The Air Force closely tracks the retention of the officer and 
enlisted force, especially those performing nuclear duty, and will 
continue to employ the full suite of force management and support 
programs to ensure retention of our highly trained Airmen.
                        jstars recapitalization
    Question. Secretary James, according to your own Analysis of 
Alternatives (AoA) completed in 2012, the most cost effective and rapid 
approach to recapitalize the JSTARS fleet is to integrate mature 
technologies on an existing business-jet platform. Despite the fact 
that Congress has supported the AoA and directed the Air Force to 
accelerate JSTARS recap the last 2 years; the program has repeatedly 
been slowed down by the Pentagon's internal acquisition bureaucracy.
    What are you doing to ensure that this program is fielded quickly 
to avoid an impending capability gap?
    Answer. The December 2015 Milestone A approval was a critical step 
in recapitalizing JSTARS. Initial operational capability is currently 
planned for fiscal year 2024. The program is spending more time 
reducing risk in the early phase of the program to support fielding the 
right capability as early as possible. The risk reduction work in 
fiscal years 2015-2017 is critical for program success and provides 
engineering, decision quality data to inform the program and preserve 
the option to accelerate the program in the future.
                          security clearances
    Question. The 2015 cyber-attacks against the Office of Personnel 
Management created an extremely large backlog in the approval of 
security clearances. What impact has this backlog, and its subsequent 
delay of clearances, had on the Air Force?
    Answer. The Office of Personnel Management backlog severely hinders 
our ability to maintain cleared personnel for mission critical nuclear, 
space, and special access programs. The backlog impacts Air Force 
worldwide deployments, contact with sensitive equipment, and other 
security requirements underpinning the need for cleared personnel. We 
are experiencing difficulty getting military intelligence personnel 
fully trained because they require security clearances prior to 
accessing classified automation systems and equipment. We are incurring 
significant costs (unfilled training billets, and charges for extended 
housing, meals, and medical expenses) because these students cannot 
complete training until they are cleared.
    We have similar issues with new hire civilian personnel who are on 
the payroll but are unable to perform work in their primary duties for 
extended times until they obtain their security clearance. The failure 
to eliminate the backlog of overdue periodic reinvestigations also 
heightens the risk of national security breaches. Additionally, the 
delay has impacted Air Force's ability to render final Homeland 
Security Presidential Directive-12 and public trust determinations 
which are a critical part of securing our personnel, government 
facilities and data.
             chinese deployment of surface to air missiles
    Question. Imagery made public by a civilian satellite on February 
17, 2016 shows that the Chinese Military has deployed surface-to-air 
missiles on one of its man-made islands in the South China Sea. As you 
may know, an estimated $5 trillion in global trade passes through the 
South China Sea every year. The U.S. Air Force has increased its 
flights over these islands in recent months, and last November Pentagon 
spokesman Peter Cook said ``we conduct B-52 flights in international 
airspace in that part of the world all the time.''
    How does the deployment of these surface-to-air missiles impact Air 
Force flights in the region, and can you confirm the Air Force will 
continue to treat this area as international airspace?
    Answer. Air Force aircraft conduct ongoing operations in the South 
China Sea area and will continue to exercise our right-to-fly within 
international airspace, in accordance with international law pertaining 
to freedom of navigation and overflight. The deployment of these 
surface-to-air missiles does not change our planned overflights.
             private sector collaboration on cybersecurity
    Question. Cybersecurity is critical to the Air Force's most potent 
strategic capabilities and stealth maneuver. However, demand from 
public and private sectors exceeds supply of the specialized 
cybersecurity expertise and talent that is difficult to find and harder 
to keep.
    What is the Air Force doing to become competitive with the allure 
of the private sector's technology cultures to recruit, train, and 
retain next-generation cybersecurity experts? Similarly, how is the Air 
Force posturing to collaborate with the private sector companies that 
often secure the top-notch experts among the cadre of cybersecurity 
professionals?
    Answer. Keeping a competitive edge in the recruitment and retention 
of cybersecurity experts is vital to the Air Force's ability to meet 
its strategic objectives. The Air Force has implemented an initial 
enlistment bonus based on the recruits' highest level of information 
technology/cybersecurity certification. We have also implemented 
additional incentives, including Special Duty Assignment Pay and 
Selective Re-enlistment Bonuses for our enlisted cyber operators. We 
are also evaluating potential programs focused on our officers in our 
cyber career fields.
    We are working in partnership with the University of Maryland on a 
program to develop a cyber aptitude assessment. This assessment is 
envisioned to serve as a screening tool to identify new recruits as 
well as potential retrainees for cyber warfare operations. Moreover, we 
are standing up 39 Cyber Mission Force Teams (CMFTs) to include stand-
alone Air Reserve Component (ARC) CMFTs as well as ARC augmentation to 
Active Duty teams enabling us to leverage commercial experience in 
cyber.
    The Air Force continues to collaborate with private sector 
companies through a force development program called Education with 
Industry. This program uses a hands-on educational experience to 
provide students with management and technical expertise as they study 
best practices with industry leaders. Currently, we have Education with 
Industry interns assigned to Microsoft, Amazon, VMware and USAA. 
Additionally, to build enduring relationships with industry, the Air 
Force stood up a detachment of entrepreneurially-focused Air Force 
strategists. This team is tasked with discovering new business 
innovations, technologies, concepts and practices that can benefit 
various Air Force communities.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                              cyber teams
    Question. The Air Force has stated they are increasing the number 
of cyber teams across the force. Will the Air Force consider capacity 
in the reserve components when making basing decisions for cyber teams?
    Answer. Yes, we can, and do, consider the Reserve Components in the 
process of evaluating options to determine the optimum total force mix 
for its cyber workforce. Once this mix is known, we will use our 
strategic basing process to determine basing enterprise and criteria 
aligned with the preferred total force mix. All Air National Guard and 
Air Force Reserve cyber assets will be considered, as appropriate. The 
basing enterprise and criteria will be announced to Congress before 
entering the next phase of the process.
    Question. There appears to be a slow pipeline in training for cyber 
teams that delays teams in reaching full operational capability. How 
many cyber teams have reached full operational capability? How does the 
Air Force intend to address the issue of a slow training pipeline in 
order to meet the growing demand of trained cyber warriors and reach 
full operational capability?
    Answer. Today, while 3 of 39 (7.7 percent) of Air Force Cyber 
Mission Force (CMF) teams are at full operational capability, only 49 
percent of the Air Force's 216 CMF billets are filled. To improve this, 
the Air Force has implemented measures to accelerate our training 
pipeline throughput, to include funding 32 military and civilian 
schoolhouse instructors, hiring polygraphers to expedite security 
clearance adjudication and adding special duty pay and higher bonuses 
for enlisted personnel in cyber operator skill sets. This resulted in a 
doubling of initial skills training (IST) throughput of key cyber 
operator positions.
    We continue to develop ways to increase accessions, expedite 
training, and reduce attrition. Current initiatives include: 
construction of an additional schoolhouse at Joint Base San Antonio, 
Texas and building renovation at Hurlburt Field, Florida to increase 
initial qualification training capacity; dedicating the remaining 
fiscal year 2016 IST enlisted cyber operator (1B4) graduates to only 
CMF positions; and gaining U.S. Cyber Command joint training 
equivalency credit based on the curriculum of our Service-level Cyber 
Warfare Operator course, which could reduce training times for 
particular joint skill sets by up to nine weeks. Future initiatives we 
are currently evaluating include: leveraging Air Reserve Component 
instructors and classrooms; upgrading hardware and software in IST 
classrooms to accommodate an additional 113 1B4 students in fiscal year 
2016; and increasing incentives and pay grades for civilian hires onto 
joint CMF teams.
    Question. The 177th and 127th--as part of the new Cyber Operations 
Group--at McConnell Air Force Base are struggling to fill vacant and 
new positions due to resourcing. Please provide an explanation and 
possible timeline when these units will receive resourcing to fill 
vacant and new positions.
    Answer. Manpower changes in the Cyber Operations Group (177th 
Information Aggressor Squadron and 127th Cyberspace Operations 
Squadron) at McConnell Air Force Base, Kansas, were impacted by the 
fiscal year 2014 National Defense Authorization Act which placed a hold 
on manpower movements in Air National Guard cyber units pending a 
mission analysis of cyber in the Department of Defense and a report 
containing the results to Congress. The report was completed and turned 
in September 2014. However, the Air National Guard extended the force 
structure hold to allow for more thorough development of Cyber Mission 
Force guidance and establishment of clear budgetary direction. With the 
passage of fiscal year 2016 National Defense Authorization Act, the Air 
National Guard was confident in the overall resourcing of the cyber 
enterprise and moved forward with planned force structure changes in 
the cyber mission area. Kansas National Guard leadership received 
manpower templates for these units in May 2015 and the unit manning 
documents are being processed and are scheduled for release to the 
State in April 2016.
                           jstars replacement
    Question. Recent testimony by Air Force leaders before the House 
Armed Services Committee indicated that the current state of technology 
does not support an unmanned platform for JSTARS. Please explain how 
operational requirements and the current state of the art call for a 
business jet solution.
    Answer. During the 2012 JSTARS Mission Area Analysis of 
Alternatives (AoA), the Air Force assessed the Battle Management, 
Command and Control (BMC2) function and Synthetic Aperture Radar/Ground 
Moving Target Indicator radar requirements across the Range of Military 
Operations (ROMO). The AoA evaluated 17 alternatives, including large-
body manned platforms (i.e., a modernized legacy E-8C, modified KC-46 
with sensor and BMC2 suite), a medium-body manned platform with a 
modern sensor and BMC2 suite, and unmanned systems (e.g., RQ-4 Global 
Hawk Block 40) paired with a ground-based BMC2 capability. The AoA 
preferred solution that best balanced mission effectiveness 
requirements across the ROMO, risk to mission assurance, and life cycle 
cost was a manned, business-class aircraft with on-board BMC2 and 
communications suites. Based on planned employment across the ROMO, 
OSD/CAPE provided a sufficiency review in support of the AoA's 
preferred solution conclusion.
                        jstars recapitalization
    Question. That same testimony also indicated that a dialogue with 
the Combatant Commanders re-validated the importance of airborne battle 
management, but that those conversations were responsible for the delay 
that is reflected in the fiscal year 2017 budget request, causing--
among other impacts--Initial Operational Capability to slip to 2021.
    Please explain how this reduction in funds for fiscal year 2017 
(compared to last year's FYDP) will impact the program, and what 
Congress can do to support accelerated deployment of this technology 
that Combatant Commanders have confirmed is critical to their 
operations.
    Answer. The conversations that led to the re-validation of the 
importance of airborne battle management did not cause the change in 
initial operational capability (IOC) planned for fiscal year 2024. 
Rather, part of the Milestone A review and decision process, senior Air 
Force and Department of Defense acquisition leaders assessed the draft 
JSTARS Recap acquisition strategy and determined we needed more time in 
the earlier stages of the acquisition to reduce overall program risk. 
Additionally, the Air Force spent more time analyzing mission area 
requirements and their associated costs. As a result, the Technology 
Maturity Risk Reduction and Engineering and Manufacturing Development 
(EMD) phases expanded, giving industry more time to mature their 
system-level designs and allowing the Department of Defense to better 
understand the mission area cost-capability trade space. We expect the 
additional time reducing risk and understanding requirements will 
facilitate a more executable and affordable program.
    The fiscal year 2017 President's Budget request was reduced to 
reflect the anticipated award of the post-Milestone B EMD contract 
being moved from the fourth quarter of fiscal year 2017 to the first 
quarter of fiscal year 2018. Although IOC moved from fiscal year 2023 
to fiscal year 2024 in the fiscal year 2017 President's Budget request 
due to an increase in the duration of EMD, this specific change to 
contract award and fiscal year 2017 funding does not impact IOC.
    Question. In light of the Combatant Commanders' requirements for 
airborne battle management capabilities, please discuss the importance 
of JSTARS recap, and explain how the Air Force plans to ensure funding 
for this program in light of statements suggesting that other platforms 
represent the Air Force's top priorities.
    Answer. We are committed to a JSTARS replacement as soon as 
realistically possible. The December 2015 Milestone A decision allowed 
us to move forward with pre-engineering and manufacturing development 
(EMD) activities, and the results of Technology Maturation and Risk 
Reduction will help lay a solid foundation for the EMD and subsequent 
phases of the program. However, the long-term nature of the Budget 
Control Act, and potential for future sequestration, does cause 
significant challenges maintaining the warfighting capabilities and 
capacity the Nation needs. We will work diligently to stay within 
budget parameters and fund our highest priority modernization, 
readiness and infrastructure programs.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
                       force improvement program
    Question. How do you propose to use Force Improvement Program funds 
in the fiscal year 2017 budget request?
    Answer. The Force Improvement Program (FIP) was a highly effective 
Major Command-led initiative that enabled commanders to address near-
term nuclear mission requirements in fiscal years 2014 and 2015. 
Beginning in fiscal year 2016, many of the recommendations from legacy-
FIP were transitioned into the Air Force corporate process, an 
important milestone that represents the institutionalization of the FIP 
process. The Air Force's fiscal year 2017 President's Budget request 
continues robust support for the full-range of near-term nuclear 
mission requirements as well as long-term recapitalization programs--
vital to ensuring the continued credibility and effectiveness of our 
deterrent forces.
            replacement of armored vehicles at malmstrom afb
    Question. I appreciate the Air Force's delivery of 43 new vehicles 
to Malmstrom AFB that are being used to transport our missile, support 
and maintenance crews. The next step is replacing the aging fleet of 
armored vehicles used by security forces and mission support personnel 
out in the field.
    What is the Air Force's plan to upgrade its fleet of armored 
vehicles deployed to the missile fields?
    Answer. The long-term plan is to procure the Joint Light Tactical 
Vehicle (JLTV) for this mission. The Department of Defense recently 
awarded the contract to Oshkosh Defense Company. In fiscal year 2016, 
an Air Force JLTV Program Office will be established at Robins Air 
Force Base, Georgia, to facilitate purchase of the vehicles beginning 
in fiscal year 2019 that will drive deliveries in fiscal year 2020 or 
2021. In the interim, the use of existing up-armored vehicles and a 
limited purchase of commercial armored tactical vehicles will meet the 
mission requirements until JLTV is fully fielded.
                      new missile alert facilities
    Question. It's my understanding that construction to replace our 
Missile Alert Facilities is currently slated to begin in fiscal year 
2019. As you know, the current facilities were built in the early 1960s 
and are increasingly vulnerable, unsafe and unhealthy for the airmen. 
As a result, leadership at Malmstrom has told me that mission 
efficiency and capability are reduced.
    Has the Air Force considered expediting these critical investments 
in new Missile Alert Facilities?
    Answer. Yes, the Air Force has considered the timing of all nuclear 
infrastructure investments to ensure credible nuclear deterrence. There 
are significant nuclear infrastructure investments for Malmstrom Air 
Force Base, Montana, in the President's Budget request and several that 
begin in fiscal year 2017. An example is the $14.6 million project 
submitted in the fiscal year 2017 President's Budget Request to 
relocate the missile maintenance facility at Malmstrom AFB to house 
transport erector vehicles, missile field response vehicles, and store 
missile maintenance equipment and parts. The current missile 
maintenance facilities operate out of a hangar that was identified as 
the beddown for UH-1N replacement, requiring relocation to a new 
facility. Additionally, a $95 million weapons storage facility project 
is currently programmed for fiscal year 2019.
                        jstars recapitalization
    Question. It's my understanding the legacy JSTARS fleet has the 
most flight hours of any Air Force aircraft at over 58,000 hours, and 
that the average age of the airframe is 47 years old. Can you comment 
on the status of the legacy fleet and why it is critical to move 
forward with the JSTARS recapitalization program? Given how important 
the JSTARS capability is to the warfighter and the Combatant Commands, 
why does the recapitalization program continue to get delayed?
    Answer. JSTARS recapitalization is absolutely necessary for the Air 
Force to continue to provide this high demand capability to our 
combatant commanders. The current fleet is aging and sustainment costs 
of the legacy fleet are increasing beyond the Air Force's ability to 
afford them.
    The current fleet has the highest average flight hours in the Air 
Force (highest 58k) with an aircraft availability rate (43.7 percent 
fiscal year 2016 year-to-date) that is steadily decreasing and depot 
maintenance schedule that is ballooning due to age-related issues. E-8C 
service life projections and the JSTARS recapitalization schedule are 
interdependent and must be closely managed to meet warfighters' needs. 
The first operational E-8C is currently predicted to achieve 100 
percent of service life in late 2017; however, service life projections 
can change based on usage. The Air Force is currently conducting a 
study to more accurately determine JSTARS fleet service life.
    The JSTARS Recapitalization program was initiated in fiscal year 
2015 achieving a materiel development decision in April 2015, then a 
Milestone A decision 8 months later. Senior Air Force and Department of 
Defense acquisition leaders assessed the draft JSTARS recapitalization 
acquisition strategy and decided to invest additional time in the 
earlier stages of the acquisition to reduce overall program risk, and 
analyze mission area requirements and their associated costs. As a 
result, the technology maturity risk reduction and engineering and 
manufacturing development phases expanded, giving industry more time to 
mature their system-level designs. We expect the additional time 
reducing risk and understanding requirements will facilitate a more 
executable and affordable program. The Air Force remains fully 
committed to recapitalizing the E-8C fleet.
    Question. The JSTARS recapitalization program was meant to be an 
integration effort using existing mature technologies and inserting 
them onto a business jet platform. Instead the Pentagon's acquisition 
bureaucracy has turned what was meant to be a rapid integration program 
into a traditional development program adding years of schedule and 
forcing a capability gap for the Combatant Commands.
    What are you doing to reverse this disturbing acquisition trend for 
JSTARS recap? What can be done to move the program faster? How fast 
could you go if you pursued JSTARS Recap as a Rapid Acquisition 
Program?
    Answer. The Air Force and the Office of the Secretary of Defense 
(OSD) are working hard to fully understand technical risks associated 
with the program and to ensure the Acquisition Strategy addresses those 
risks. The Air Force and OSD have also been addressing the 
affordability of the JSTARS recapitalization program in light of the 
current budget environment. The deliberate approach supports our 
objective of having an executable and affordable program. The Air Force 
will continue to look at opportunities to accelerate the fielding of 
this capability as we go forward. The fastest way to get to initial 
operational capability is to have an executable program with a solid 
risk mitigation plan, as reflected by the existing acquisition 
strategy.
    Question. If you don't get JSTARS Recap moving quickly, doesn't it 
risk getting lost in the modernization bow wave the Air Force faces 
with F-35, Tanker, and Long-Range Strike Bomber?
    Answer. We are committed to a JSTARS replacement as soon as 
realistically possible. The December 2015 Milestone A decision allowed 
us to move forward with pre-engineering and manufacturing development 
(EMD) activities, and the results of Technology Maturation and Risk 
Reduction will help lay a solid foundation for the EMD and subsequent 
phases of the program. However, the long-term nature of the Budget 
Control Act, and potential for future sequestration, does cause 
significant challenges maintaining the warfighting capabilities and 
capacity the Nation needs. We will work diligently to stay within 
budget parameters and fund our highest priority modernization, 
readiness and infrastructure programs.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                         funding energy efforts
    Question. The Air Force is breaking ground on a project this year 
at Joint Base Pearl Harbor-Hickam that will use utility-scale clean 
power, battery storage, and smart grid technologies to protect the 
Hawaii Air National Guard's ability to do its job if and when there is 
a disruption to the civilian electric grid. It is a great example of 
where we should continue to move.
    How is the Air Force making it easier for base commanders to use 
their own operating funds, not research and development funds, to 
invest in energy efforts that are already proven to support the Air 
Force's war fighting mission?
    Answer. The Air Force is pursuing both direct and third-party 
financing options to develop energy projects that optimize energy and 
enhance mission assurance through energy assurance. As part of this 
initiative, the Air Force established the Air Force Office of Energy 
Assurance (OEA) in February 2016. The OEA provides the Air Force with 
strategic energy agility and support to installation commanders. It is 
a central program office dedicated to the development, implementation, 
and oversight of privately-financed, large-scale renewable and 
alternative energy projects. The OEA leverages partnerships with the 
Army and Navy, taking an enterprise-wide approach to identify and 
facilitate energy projects that provide resilient, cost-effective, and 
cleaner power to Air Force installations.
    The Air Force is currently facing risk in its Facilities, 
Sustainment, Restoration and Modernization accounts. Unable to meet our 
requirements in this area, we are focusing limited resources on 
``mission critical, worst-first'' facilities. To partially mitigate 
this risk, the OEA and the Air Force Civil Engineer Center will apply 
available congressional authorities, such as utilities privatization, 
power purchase agreements, and third-party financed projects (e.g., 
Energy Savings Performance Contracts, etc.) to help installation 
commanders fully leverage utility dollars.
   maui space surveillance site and high performance computing center
    Question. Secretary James, as we discussed, the Air Force is 
responsible for tracking objects in space and protecting our satellites 
from space debris and threats from potential adversaries. I worry, 
however, that our ability to assess threats in ``real-time'' is not 
sufficient for protecting our satellites from a peer competitor during 
a time of heightened tensions or conflict. On Maui, the Space 
Surveillance Site and the High Performance Computing Center could 
improve our response capability, but they are not being used to their 
full potential.
    Would the Air Force consider connecting the supercomputer on Maui 
to high security networks so the data collected at the Maui Space 
Surveillance Site can be used in ``real-time'' to send alerts about 
potential threats to our satellites?
    Answer. The Maui High Performance Computing Center (MPHCC) has been 
used by Air Force Space Command in recent history (2010) and capability 
analysis for future Space Surveillance Network (SSN) architectures has 
been conducted using the SSN Analysis Model.
    While AFRL is responsible for the daily operations of the MHPCC, 
the center is one of five Department of Defense Supercomputing Resource 
Centers administered by the Army as part of the DOD High Performance 
Computing Modernization Program (HPCMP). The Air Force and Army have a 
strong collaborative relationship in developing and shaping the future 
of the MHPCC as part of the overall HPCMP program, and we have shared 
your ideas about connecting the MHPCC computers to the higher 
classification network with HPCMP leadership; we would be happy to put 
your staff in contact with them as well.
    Of note, there are times when satellite owners request data to be 
collected that they will only allow to be processed in their own 
mainland facilities due to a higher classification level requiring an 
SCI network.
                                 ______
                                 
            Questions Submitted to General Mark A. Welsh III
            Questions Submitted by Senator Susan M. Collins
                        jstars recapitalization
    Question. General Welsh--I understand that the legacy JSTARS fleet 
has the most flight hours of any Air Force aircraft at over 58,000 
hours and that the average age of the airframe is 47 years old.
    Can you comment on the status of the legacy fleet and why it is 
critical to move forward with the JSTARS recapitalization program? 
Given how important the JSTARS capability is to the warfighter and the 
Combatant Commands, why does the recapitalization program continue to 
get delayed?
    Answer. JSTARS recapitalization is absolutely necessary for the Air 
Force to continue to provide this high demand capability to our 
combatant commanders. The current fleet is aging and sustainment costs 
of the legacy fleet are increasing beyond the Air Force's ability to 
afford them.
    The current fleet has the highest average flight hours in the Air 
Force (highest 58k) with an aircraft availability rate (43.7 percent 
fiscal year 2016 year-to-date) that is steadily decreasing and depot 
maintenance schedule that is ballooning due to age-related issues. E-8C 
service life projections and the JSTARS recapitalization schedule are 
interdependent and must be closely managed to meet warfighters' needs. 
The first operational E-8C is currently predicted to achieve 100 
percent of service life in late 2017; however, service life projections 
can change based on usage. The Air Force is currently conducting a 
study to more accurately determine JSTARS fleet service life.
    The JSTARS Recapitalization program was initiated in fiscal year 
2015 achieving a materiel development decision in April 2015, then a 
Milestone A decision 8 months later. Senior Air Force and Department of 
Defense acquisition leaders assessed the draft JSTARS recapitalization 
acquisition strategy and decided to invest additional time in the 
earlier stages of the acquisition to reduce overall program risk, and 
analyze mission area requirements and their associated costs. As a 
result, the technology maturity risk reduction and engineering and 
manufacturing development phases expanded, giving industry more time to 
mature their system-level designs. We expect the additional time 
reducing risk and understanding requirements will facilitate a more 
executable and affordable program. The Air Force remains fully 
committed to recapitalizing the E-8C fleet.
                        jstars acquisition trend
    Question. General Welsh--The JSTARS recapitalization program was 
meant to be an integration effort using existing mature technologies 
and inserting them onto a business jet platform. Instead the Pentagon's 
acquisition bureaucracy has turned what was meant to be a rapid 
integration program into a traditional development program adding years 
of schedule and forcing a capability gap for the Combatant Commands.
    What are you doing to reverse this disturbing acquisition trend for 
JSTARS recap?
    Answer. The Air Force and the Office of the Secretary of Defense 
(OSD) are working hard to fully understand technical risks associated 
with the program and to ensure the acquisition strategy addresses those 
risks. The Air Force and OSD have also been addressing the 
affordability of the JSTARS recapitalization program in light of the 
current budget environment. The deliberate approach supports our 
objective of having an executable and affordable program. The Air Force 
will continue to look at opportunities to accelerate the fielding of 
this capability as we go forward. The fastest way to get to initial 
operational capability is to have an executable program with a solid 
risk mitigation plan, as reflected by the existing acquisition 
strategy.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                        jstars recapitalization
    Question. General Welsh--I understand that the legacy JSTARS fleet 
has the most flight hours of any Air Force aircraft at over 58,000 
hours and that the average age of the airframe is 47 years old. Can you 
comment on the status of the legacy fleet and why it is critical to 
move forward with the JSTARS recapitalization program? Given how 
important the JSTARS capability is to the warfighter and the Combatant 
Commands, why does the recapitalization program continue to get 
delayed?
    Answer. JSTARS recapitalization is absolutely necessary for the Air 
Force to continue to provide this high demand capability to our 
combatant commanders. The current fleet is aging and sustainment costs 
of the legacy fleet are increasing beyond the Air Force's ability to 
afford them.
    The current fleet has the highest average flight hours in the Air 
Force (highest 58k) with an aircraft availability rate (43.7 percent 
fiscal year 2016 year-to-date) that is steadily decreasing and depot 
maintenance schedule that is ballooning due to age-related issues. E-8C 
service life projections and the JSTARS recapitalization schedule are 
interdependent and must be closely managed to meet warfighters' needs. 
The first operational E-8C is currently predicted to achieve 100 
percent of service life in late 2017; however, service life projections 
can change based on usage. The Air Force is currently conducting a 
study to more accurately determine JSTARS fleet service life.
    The JSTARS Recapitalization program was initiated in fiscal year 
2015 achieving a materiel development decision in April 2015, then a 
Milestone A decision 8 months later. Senior Air Force and Department of 
Defense acquisition leaders assessed the draft JSTARS recapitalization 
acquisition strategy and decided to invest additional time in the 
earlier stages of the acquisition to reduce overall program risk, and 
analyze mission area requirements and their associated costs. As a 
result, the technology maturity risk reduction and engineering and 
manufacturing development phases expanded, giving industry more time to 
mature their system-level designs. We expect the additional time 
reducing risk and understanding requirements will facilitate a more 
executable and affordable program. The Air Force remains fully 
committed to recapitalizing the E-8C fleet.
    Question. General Welsh--Last December, you were quoted in saying 
that ``if the AF can't fund JSTARS in fiscal year 2017, it'll make the 
fiscal year 2018 budget.'' The fiscal year 2017 presidential budget 
slates $128 Million dollars towards the JSTARS recapitalization 
program. Do you still feel confident that the JSTARS replacement will 
still meet the 2023 Initial Operating Capability as planned, given this 
year's proposed spending level?
    Answer. JSTARS recapitalization initial operational capability is 
currently planned for fiscal year 2024. The fastest way to get to 
initial operational capability is to have an executable program with a 
solid risk mitigation plan, as reflected by the existing acquisition 
strategy. The Air Force will continue to look at opportunities to 
accelerate the fielding of this capability as we go forward.
                                 ______
                                 
                Question Submitted by Senator Roy Blunt
                     military family stability act
    Question. General Welsh, I am sure during your storied career you 
have personally experienced, or had Airmen under your command who could 
have benefited from such legislation. Could you discuss any examples 
you experienced during your career in the Air Force where this 
legislation would have been valuable?
    Answer. Almost every day, I have the opportunity to learn and see 
the outcome of the current efforts we have in place that ease the 
relocation challenges our Air Force members and families experience, 
especially during my travels to installations and conversations with 
spouses and family members.
    The Air Force is fortunate to have in place numerous avenues to 
help our Airmen during permanent change of station. These existing laws 
and policies are more inclusive of the unique operational requirements 
of our personnel and allow us to be more responsive to our members.
    While I support the intent of this legislation to provide for more 
military family stability as a subset of family readiness, the 
feasibility and cost of implementing this legislation continues to be a 
significant concern.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                        jstars recapitalization
    Question. General Welsh, I understand that the legacy JSTARS fleet 
has the most flight hours of any Air Force aircraft at over 58,000 
hours and that the average age of the airframe is 47 years old.
    Can you comment on the status of the legacy fleet and why it is 
critical to move forward with the JSTARS recapitalization program? 
Given how important the JSTARS capability is to the warfighter and the 
Combatant Commands, why does the recapitalization program continue to 
get delayed?
    Answer. JSTARS recapitalization is absolutely necessary for the Air 
Force to continue to provide this high demand capability to our 
combatant commanders. The current fleet is aging and sustainment costs 
of the legacy fleet are increasing beyond the Air Force's ability to 
afford them.
    The current fleet has the highest average flight hours in the Air 
Force (highest 58k) with an aircraft availability rate (43.7 percent 
fiscal year 2016 year-to-date) that is steadily decreasing and depot 
maintenance schedule that is ballooning due to age-related issues. E-8C 
service life projections and the JSTARS recapitalization schedule are 
interdependent and must be closely managed to meet warfighters' needs. 
The first operational E-8C is currently predicted to achieve 100 
percent of service life in late 2017; however, service life projections 
can change based on usage. The Air Force is currently conducting a 
study to more accurately determine JSTARS fleet service life.
    The JSTARS Recapitalization program was initiated in fiscal year 
2015 achieving a materiel development decision in April 2015, then a 
Milestone A decision 8 months later. Senior Air Force and Department of 
Defense acquisition leaders assessed the draft JSTARS recapitalization 
acquisition strategy and decided to invest additional time in the 
earlier stages of the acquisition to reduce overall program risk, and 
analyze mission area requirements and their associated costs. As a 
result, the technology maturity risk reduction and engineering and 
manufacturing development phases expanded, giving industry more time to 
mature their system-level designs. We expect the additional time 
reducing risk and understanding requirements will facilitate a more 
executable and affordable program. The Air Force remains fully 
committed to recapitalizing the E-8C fleet.
    Question. General Welsh, last December, you were quoted in saying 
that ``if the AF can't fund JSTARS in fiscal year 2017, it'll make the 
fiscal year 2018 budget.'' The fiscal year 2017 presidential budget 
slates $128 Million dollars towards the JSTARS recapitalization 
program.
    Do you still feel confident that the JSTARS replacement will still 
meet the 2023 Initial Operating Capability as planned, given this 
year's proposed spending level?
    Answer. JSTARS recapitalization initial operational capability is 
currently planned for fiscal year 2024. The fastest way to get to 
initial operational capability is to have an executable program with a 
solid risk mitigation plan, as reflected by the existing acquisition 
strategy. The Air Force will continue to look at opportunities to 
accelerate the fielding of this capability as we go forward.
                                 ______
                                 
               Question Submitted by Senator Brian Schatz
                       pacific cyber capabilities
    Question. Given the Importance of the rebalance to the Asia-Pacific 
to the Joint Force, do you think the Air Force is sufficiently 
investing in the cyber capabilities it needs to protect our forces from 
the threats we face from potential competitors and adversaries in the 
region? How does the Air Force plan to bolster its cyber capabilities 
in the Pacific to deter and defeat those asymmetric capabilities that 
our adversaries are developing?
    Answer. The Air Force is increasing its investment in the 
cyberspace enterprise to $4.0 billion in fiscal year 2017 and $20 
billion over the Future Years Defense Program. This will allow us to 
finish building our 39 defensive and offensive Cyber Mission Force 
teams to full operational capability, improve Air Force network 
defensibility, and fund initiatives to better train and retain highly-
technical Total Force cyberspace Airmen. We have also launched Task 
Force Cyber Secure integrating cyber activities throughout the Air 
Force. In the Pacific, we are continuing to develop offensive/defensive 
capabilities, integrating cyber operations into joint warfighting 
plans, and making cyber operations more inclusive in allied/partner 
exercises. In addition, the Air Force is a full partner in building the 
joint information environment further enhancing defensibility, 
situational awareness, and management of our Pacific installations' 
computer networks.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Subcommittee will reconvene on 
Wednesday, February 24, at 10:30 a.m. to receive testimony from 
the Department of the Army. Until then, the subcommittee stands 
in recess.
    [Whereupon, at 12:00 p.m., Wednesday, February 10, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, February 24.]
</pre></body></html>
